<html>
<title> - ISLAM AND THE WEST: SEARCHING FOR COMMON GROUND</title>
<body><pre>[Senate Hearing 109-948]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-948
 
            ISLAM AND THE WEST: SEARCHING FOR COMMON GROUND

=======================================================================


                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             SECOND SESSION

                               __________

                             JULY 18, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                     U.S. GOVERNMENT PRINTING OFFICE

36-963 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Ahmed, Ambassador Akbar S., Ibn Khaldun Chair of Islamic Studies, 
  School of International Service, American University, 
  Washington, DC.................................................    26
    Prepared statement...........................................    30
Hoffman, Dr. Bruce, corporate chair in Counterterrorism and 
  Counterinsurgency, the Rand Corporation, Washington, DC........     3
    Prepared statement...........................................     8
Khan, Dr. Muqtedar, assistant professor, Political Science and 
  International Relations, University of Delaware, Newark, DE....    33
    Prepared statement...........................................    37
Kohut, Mr. Andrew, president, Pew Research Center, Washington, DC    16
    Prepared statement...........................................    20
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

                                 (iii)




            ISLAM AND THE WEST: SEARCHING FOR COMMON GROUND

                              ----------                              


                         TUESDAY, JULY 18, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee) presiding.
    Present: Senators Lugar and Boxer.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    The Chairman. This hearing of the Foreign Relations 
Committee is called to order. The committee meets today to 
convene the second in a series of hearings on the issue of 
global terrorism and our national and international efforts to 
combat it.
    The issue regrettably remains very much in the headlines. 
Just last week commuters in Bombay experienced the spontaneous 
and tragic consequences of terrorism. As tensions flare and 
more lives are lost in the volatile Middle East, terrorist acts 
continue to be a tactic of those wishing to achieve political 
objectives.
    In our first hearing we heard from both current and former 
senior Government officials on the state of the terrorist 
threat against the United States, and we received 
recommendations for measuring success and moving forward. We 
learned that while there have been unequivocal successes in our 
war against terror, the root causes of terrorism, particularly 
those driven by Islamic radicalism, remain very much with us.
    I noted during our last hearing that military operations 
alone will not win the longer war on terrorism, and this view 
was validated by testimony at the hearing. Even with an al-
Qaeda organization that is scattered and on the run, its 
leadership continues to provide ideological guidance to 
followers worldwide. In other words, despite our operational 
and tactical successes on several fronts, the root causes of 
terrorism and the intense ideological motivation behind this 
phenomenon persist.
    We have started this inquiry from the premise that the 
United States antiterrorism strategy cannot be reduced to 
military terms or to a fight against existing conspirators. It 
must include longer-term measures designed to prevent terrorist 
cells and movements that would target Americans on our shores 
and abroad from forming in the first place. In today's world, 
an antiterrorist strategy cannot focus exclusively on ``capture 
and kill'' or on the derailment of imminent terrorist acts. 
Terrorism is a complex phenomenon that requires the application 
of technological, military, law enforcement, economic, 
diplomatic, and moral resources.
    To evaluate the United States' antiterrorism strategy, we 
have to know what causes a person to embrace an ideology that 
would have them resort to terrorism as a tactic. And once 
inclined toward such ideology, what is it that would dissuade a 
person from committing violence toward Americans in the first 
place?
    Congressional oversight should ensure that we are getting 
the maximum benefit out of our antiterrorism investments, that 
agencies are working cooperatively and effectively with one 
another, and that we are implementing a comprehensive strategy 
focused on achievable short- and long-term objectives. And, 
finally, we must know how we can define our success in this 
effort and how we would know when we have achieved it.
    The purpose of today's hearing is to perform an examination 
of the historical roots of terrorism and how other nations have 
dealt with the phenomenon. We will focus in particular on the 
roots of Islamic-based terrorism, including the current image 
of the United States in the Muslim world, how Westerners and 
Muslims view each other, and the state of the struggle within 
contemporary Islam between its more moderate and extreme 
factions. We will also probe how the United States and its 
Western allies and counterparts can move toward a more 
productive, longer-term relationship with the Muslim world.
    Our panel today consists of four individuals who have 
unique experience to inform us on this complex and important 
topic.
    Dr. Bruce Hoffman is the corporate chair in 
counterterrorism and counterinsurgency at the RAND Corporation. 
He is also director of RAND's Washington office. He has a long 
history of scholarly writing on all aspects of terrorism and 
counterinsurgency, and has worked as a senior advisor to many 
government entities in both the United States and Great 
Britain. He is the editor of ``Studies in Conflict and 
Terrorism,'' the leading worldwide scholarly journal in the 
field, and has written extensively on al-Qaeda's tactics, 
strategies, and leadership.
    Mr. Andrew Kohut is the president of the Pew Research 
Center. He also acts as the director of the Pew Research Center 
for the People and the Press, and the Pew Global Attitudes 
Project. He was president of the Gallup organization from 1979 
to 1989. Mr. Kohut is widely sought after as a commentator on 
public opinion and has received many awards in his profession. 
He is the author of several books, the most recent of which is 
``America Against the World--How We Are Different and Why We 
Are Disliked.''
    Ambassador Akbar Ahmed is a respected scholar on 
contemporary Islam. He is a former high commissioner of 
Pakistan to Great Britain, and has advised many world leaders 
in Islam. He holds a chair in Islamic Studies and is a 
professor of international relations at American University. 
The Ambassador is also a distinguished anthropologist, writer, 
and filmmaker, and is the author of many books on Muslim 
history and society. He has just returned from an extensive 
trip throughout the Muslim world.
    Dr. Muktedar Khan is a professor of political science and 
international relations at the University of Delaware, and a 
nonresident fellow at the Saban Center for Middle East policy 
at the Brookings Institution. He is known best for his insight 
relating to the role of moderate Muslims in Islamic thought. 
His thoughtful post-September 11 essay to his fellow American 
Muslims has been widely recognized and published. New York 
Newsday noted that Dr. Khan is ``one of a growing number of 
young moderate Muslim thinkers who believe themselves engaged 
in a battle for the soul of Islam.''
    Gentlemen, we welcome you all. We appreciate your 
willingness to share your thoughts with us today. We look 
forward to your testimony. Let me mention that your statements 
will be made a part of the record in full, and I ask for 
permission that this occur. You may as you choose present your 
full material, or summarize it. We are here to hear you today, 
and then hopefully you will respond to our questions.
    I would like to recognize the presence of my distinguished 
colleague from California, Senator Barbara Boxer. Do you have a 
word of welcome for the witnesses?
    Senator Boxer. I do, and I won't give an opening statement. 
I'm very anxious to hear from them.
    But I do welcome you. I think in light of events around the 
world right now, we need understanding, we need ideas, and we 
look to you for all of that and more. Thank you.
    The Chairman. Thank you very much, Senator Boxer.
    I'll ask you to testify in this order: First of all, Dr. 
Hoffman, and then Mr. Kohut, and then Mr. Ahmed, and finally 
Dr. Khan. Would you please proceed, Dr. Hoffman.

      STATEMENT OF DR. BRUCE HOFFMAN, CORPORATE CHAIR IN 
 COUNTERTERRORISM AND COUNTERINSURGENCY, THE RAND CORPORATION, 
                         WASHINGTON, DC

    Dr. Hoffman. Thank you, Mr. Chairman. I appreciate very 
much the opportunity to speak before the committee today on 
this very important topic.
    In your opening remarks you described al-Qaeda as an 
organization scattered and on the run. My testimony will argue 
that while that might even recently have been the case, today 
al-Qaeda has not only regrouped but is in fact on the march.
    Let me begin my oral testimony with two brief quotations in 
the recently cited report by the British parliamentary 
committee investigating the July 7, 2005 bombings in London:
    ``We were working off a script which actually has been 
completely discounted from what we know as reality.'' That was 
by Andy Hayman, the assistant commissioner of specialist 
operations at Scotland Yard, in other words, Britain's top 
counterterrorism cop.
    Second, ``I think the more we learned over this period of 
several years, the more we began to realize the limits of what 
we knew.'' This was by Tom Dowse, the chief of the United 
Kingdom Intelligence Assessments Staff.
    These two admissions made by persons at the apex of the 
United Kingdom's counterterrorism effort encapsulate the 
central challenge facing the United States today in our own 
counterterrorism effort. Given the threat's dynamic and 
evolutionary character and our adversaries' seeming ability to 
adapt and adjust their tactics and modi operandi to overcome or 
obviate even our most consequential countermeasures, how can we 
best ensure that our own assessments and analyses are anchored 
firmly to sound, empirical judgment and not blinded by either 
conjecture, mirror-imaging, politically partisan prisms, or 
wishful thinking? And equally critically, how can we ensure 
that our counterterrorism policy is sufficiently comprehensive, 
well-crafted, and effectively directed?
    Let me first begin with a brief description of al-Qaeda 
today, its evolution, adaptation, and adjustment. Al-Qaeda's 
obituary has been written often since 9/11. Today it is 
frequently spoken of as an organization in retreat, a broken 
and beaten movement, incapable of mounting further attacks on 
its own, and instead having
devolved operational authority either to its various affiliates 
or associates or to entirely organically produced, homegrown 
terrorist entities. Nothing could be further from the truth.
    Al-Qaeda, in fact, is on the march. It has regrouped and 
reorganized from the setbacks meted out by the United States 
and our coalition partners and allies during the initial phases 
of the global war on terrorism, and is marshalling its forces 
to continue the epic struggle begun now 10 years ago this 
coming August. The al-Qaeda of today combines, as it always 
has, both a bottom-up approach, encouraging independent thought 
and action from low- or lower-level operatives, and a top-down 
one, with its remaining central command issuing orders and 
still coordinating a far-flung terrorist enterprise with both 
highly synchronized and autonomous moving parts.
    The most salient threat continues to come from al-Qaeda 
central and from its affiliates and associated terrorist 
groups. However, an additional and equally challenging threat 
is now posed by less discernible and more unpredictable 
entities drawn from the vast Muslim diaspora and community in 
Europe. This new category of terrorist adversary, moreover, 
also has proven more difficult for the authorities in these 
countries to track, predict, and anticipate. It is also 
difficult, if not impossible, to effectively profile this 
adversary.
    Indeed, this was precisely the conclusion reached by the 
above-mentioned parliamentary committee in their report on last 
year's London bombings. Although the members of these terrorist 
cells may be marginalized individuals working in menial jobs, 
from the lower socioeconomic strata of society, some with long 
criminal records or histories of juvenile delinquency, others 
may well come from solidly middle and upper middle class 
backgrounds, with university and perhaps even graduate degrees, 
and prior passions for cars, sports, rock music, and other 
completely secular material interests.
    These new recruits are the anonymous cogs in the worldwide 
al-Qaeda enterprise, and include both longstanding residents 
and new immigrants found across Europe, but specifically in 
countries with large Muslim populations, such as Britain, 
Spain, France, Germany, Italy, the Netherlands, and Belgium.
    Let me now briefly turn to what I argue are the perils of 
wishful thinking: al-Qaeda and the 7/7 London bombings. The 
United Kingdom of course rightly prides itself on decades-long 
experience and detailed knowledge of effectively countering a 
variety of terrorist threats. Yet, despite Britain's formidable 
counterterrorist capabilities and unrivaled expertise, its 
security, intelligence, and law enforcement agencies, as the 
quotes at the beginning of this testimony evidence, dismissed 
the likelihood of an imminent attack in the United Kingdom and 
moreover believed that eventually, when such an attack would 
occur, it would not involve suicide tactics.
    The point of this discussion is most certainly not to 
criticize our principle ally in the war on terrorism, but 
rather to highlight the immense difficulties and vast 
uncertainties concerning countering terrorism today, that have 
confounded even the enormously professional and experienced 
British intelligence and security services. Moreover, the 
danger of similarly cloaking ourselves in a false sense of 
security based on faulty assumptions or wishful thinking is 
omnipresent in so fluid and dynamic a terrorism environment as 
exists today.
    Indeed, our appreciation and understanding of the current 
al-Qaeda threat underscores these perils. Both at the time of 
the
London bombings and since, a misconception has frequently been 
perpetuated that this was entirely an organic or homegrown 
phenomena of self-radicalized, self-selected terrorists. Such 
arguments often were cited in support of the argument that 
entirely homegrown threats had superseded those posed by al-
Qaeda, that al-Qaeda itself was no longer a consequential, 
active terrorist force, and accordingly that the threat had 
both changed and perhaps even receded.
    The evidence that has come to light since the London 
attacks a year ago, however, points to the opposite conclusion: 
That al-Qaeda is not only alive and kicking, but that it is 
still actively planning and supporting, through the provision 
of training and perhaps even directing terrorist attacks on a 
global canvas. Issues of classification and sensitive 
collection prevent a full description and account of this 
evidence of active al-Qaeda involvement in the London attacks.
    However, suffice it to say that what is publicly known and 
what has been reported in numerous unclassified sources clearly 
points to such involvement. Mohammed Siddique Khan, for 
instance, the ringleader of the London gang, visited Pakistan 
on at least two occasions, and on his second visit was 
accompanied by another London bomber, Shazad Tanweer. It is 
believed that they visited Pakistani jihadi terrorist training 
camps, and indeed that they met with al-Qaeda operatives.
    Both men made ``martyrdom'' videos while they were in 
Pakistan between November 2004 and February 2005 and, like all 
of Osama bin Laden's most important videotaped statements and 
appearances, the Khan and Tanweer statements were both 
professionally produced and released by al-Qaeda's perennially 
active communications department, Al Sahab for Media 
Production. Al Sahab means ``the clouds.''
    Finally, in concluding my testimony, how do we move toward 
a new U.S. counterterrorism policy, given the changing and 
dynamic character of the terrorist threat today? This brief 
discussion of the 7/7 London bombings is intended to illustrate 
the dynamic, changing nature of a threat that cannot be 
defeated by military means alone.
    Yet our policy to date has arguably been predominantly 
weighted toward the tactical ``kill and capture'' approach in 
metric, assuming that a traditional center of gravity exists, 
whether the target is al-Qaeda or the insurgency in Iraq, and 
that this target simply needs to be destroyed so that global 
terrorism or the Iraqi insurgency will end. However, both our 
adversaries today and the threats that they pose are much more 
elusive and complicated and, as the previous discussion of the 
London attacks clearly depicts, less neatly amenable to kinetic 
solutions.
    Accordingly, a new strategy and a new approach is vital. 
Its success will be predicated upon a strategy that effectively 
combines the tactical elements of systematically destroying and 
weakening enemy capabilities--the ``kill/capture'' approach--
alongside the equally critical, broader strategic imperative of 
breaking the cycle of terrorist recruitment and replenishment 
that have respectively sustained both al-Qaeda's continued 
campaign and the ongoing conflict in Iraq.
    A successful strategy will thus be one that also thinks and 
plans ahead, with a view toward addressing the threats likely 
to be posed by the terrorist and insurgent generation, not only 
beyond the current one but beyond the one after the current 
one. At the foundation of such a dynamic and adaptive strategy 
must be the ineluctably maxim that effectively and successfully 
countering terrorism as well as insurgency, is not exclusively 
a military endeavor, but involves fundamental parallel 
political, social, economic, and ideological activities.
    Accordingly, rather than viewing the fundamental organizing 
principle of American national defense strategy in this 
unconventional realm as a global war on terrorism, it may be 
more useful to reconceptualize it in terms of a global 
counterinsurgency. Such an approach would, a priori, knit 
together the equally critical political, economic, diplomatic, 
and developmental sides inherent to the successful prosecution 
of counterterrorism and counterinsurgency, and contribute to 
the existing dominant military side of the equation.
    Greater attention to this integration of American 
capabilities would provide incontrovertible recognition of the 
importance of
endowing a global counterinsurgency with an overriding and 
comprehensive multidimensional policy. Ideally, this policy 
would embrace several elements, including a clear strategy, a 
defined structure for implementing it, and a vision of 
intergovernmental agency cooperation and a unified effort to 
guide it. A more focused and strengthened interagency process 
would also facilitate the coordination of key themes and 
messages, and the development and execution of long-term 
``hearts and minds'' programs.
    The U.S. Government, in sum, will need to adjust and adapt 
its strategy, resources, and tactics to formidable opponents 
that, as we have seen, are widely dispersed and decentralized, 
and whose many destructive parts are autonomous, mobile, and 
themselves highly adaptive. In this respect, even the best 
strategy will be proven inadequate if military and civilian 
agency leaders are not prepared to engage successfully within 
ambiguous environments and to reorient their organizational 
culture to deal with irregular threats.
    A successful global counterinsurgency transcends the need 
for better tactical intelligence or new organizations. It is 
fundamentally about transforming the attitudes and mindsets of 
leaders so that they have the capacity to take decisive yet 
thoughtful action against terrorists and insurgents in 
uncertain or unclear situations, based on a common vision, 
policy, and strategy.
    In sum, new times, new threats, and new challenges make a 
new strategy, approach, and new organizational and 
institutional behaviors necessary. The effectiveness of a U.S. 
strategy will be based on our capacity to think like a 
networked enemy, in anticipation of how they may act in a 
variety of situations, aided by different resources.
    This goal requires that the American national security 
structure, in turn, organize itself for maximum efficiency, 
information-sharing, and the ability to function quickly and 
effectively under new operational definitions. With this 
understanding in mind, we need to craft an approach that 
specifically takes into account the following key factors to 
effectively wage a global counterinsurgency:

  <bullet> One, separating the enemy from the populace that 
        provides its support and sustenance. This, in turn, 
        entails three basic missions: denial of enemy 
        sanctuary; elimination of enemy freedom of movement; 
        denial of enemy resources and support.
  <bullet> Second, identification and neutralization of the 
        enemy.
  <bullet> Third, creation of a secure environment, progressing 
        from local to regional to global.
  <bullet> Fourth, ongoing and effective neutralization of 
        enemy propaganda and information operations through the 
        planning and execution of a comprehensive and 
        integrated information operations and holistic civil 
        affairs campaign of our own.
  <bullet> Finally, interagency efforts to build effective and 
        responsible civil governance mechanisms that eliminate 
        the fundamental causes of terrorism and insurgency.

    In conclusion, al-Qaeda may be compared to the archetypal 
shark in the water that must keep moving forward, no matter how 
slowly or incrementally, or die. In al-Qaeda's context, this 
means adapting and adjusting to our countermeasures while 
simultaneously searching to identify new targets and new 
vulnerabilities. In this respect, al-Qaeda's capacity to 
continue to prosecute this struggle is a direct reflection of 
both the movement's resiliency and the continued resonance of 
its ideology.
    Al-Qaeda's operational durability thus has enormous 
significance for United States counterterrorism strategy and 
policy. Because al-Qaeda has this malleable resiliency, it 
cannot be defeated or destroyed in a single military engagement 
or even a series of engagements, much less ones exclusively 
dependent on the application of conventional forces and 
firepower. To a significant degree, our ability to carry out 
such missions effectively will depend on the ability of 
American strategy and policy to adjust and adapt to changes we 
see in the nature and character of our adversaries. Thank you 
very much, Mr. Chairman.
    [The prepared statement of Mr. Hoffman follows:]

      Prepared Statement of Dr. Bruce Hoffman, Corporate Chair in 
 Counterterrorism and Counterinsurgency, RAND Corporation, Washington, 
                                   DC

    ``We were working off a script which actually has been completely 
discounted from what we know as reality.''--Andy Hayman, Assistant 
Commissioner of Specialist Operations, Scotland Yard

    ``I think the more we learned over this period of several years, 
the more we began to realize the limits of what we knew . . .''--Tom 
Dowse, Chief of the Assessments Staff

    These two admissions, made by persons at the apex of the United 
Kingdom's counterterrorism effort, encapsulate the central challenge 
today facing the United States in our own counterterrorism effort. 
Given the threat's dynamic and evolutionary character and our 
adversaries' seeming ability to adapt and adjust their tactics and modi 
operandi to overcome or obviate even our most consequential 
countermeasures, how can we best ensure that our own assessments and 
analyses are anchored firmly to sound, empirical judgment and not 
blinded by either conjecture, mirror-imaging, politically partisan 
prisms or wishful thinking? And, equally critically, how can we ensure 
that our counterterrorism policy is sufficiently comprehensive, well 
crafted and effectively directed?
         al-qaeda today: evolution, adaptation, and adjustment
    Al-Qaeda's obituary has been written often since 9/11. ``Al-
Qa'ida's Top Primed To Collapse, U.S. Says,'' trumpeted a Washington 
Post headline 2 weeks after Khalid Sheikh Mohammed, the mastermind 
behind the 9/11 attacks, was arrested in March 2003. ``I believe the 
tide has turned in terms of al-Qa'ida,'' Congressmen Porter J. Goss, 
then-chairman of the U.S. House of Representatives Intelligence 
Committee and himself a former CIA case officer who became its director 
a year later, was quoted. ``We've got them nailed,'' an unidentified 
intelligence expert was quoted, who still more expansively declared, 
``we're close to dismantling them.'' These upbeat assessments continued 
the following month with the nearly bloodless capture of Baghdad and 
the failure of al-Qaeda to make good on threats of renewed attacks in 
retaliation for invasion. Citing administration sources, an article in 
the Washington Times on 24 April 2003 reported the prevailing view in 
official Washington that al-Qaeda's ``failure to carry out a successful 
strike during the United States-led military campaign to topple Saddam 
Hussein has raised questions about their ability to carry out major new 
attacks.'' Despite major terrorist attacks in Jakarta and Istanbul 
during the latter half of that same year and the escalating insurgency 
in Iraq, this optimism carried into 2004. ``The al-Qaida of the 9/11 
period is under catastrophic stress,'' Ambassador Cofer Black, at the 
time the U.S. State Department's Counterterrorism Coordinator, 
declared. ``They are being hunted down, their days are numbered.'' Then 
came the Madrid bombings 6 weeks later and the deaths of 191 persons. 
The most accurate assessment, perhaps, was therefore the one offered by 
al-Qaeda itself. ``The Americans,'' Thabet bin Qais, a spokesperson for 
the movement said in May 2003, ``only have predications and old 
intelligence left. It will take them a long time to understand the new 
form of al-Qaida.'' Admittedly, while the first part of bin Qais's 
assertion is not correct, there is more than a grain of truth to the 
second part. More than 3 years later we are indeed still struggling to 
understand the changing character and nature of al-Qaeda and the 
shifting dimensions of the terrorist threat as it has evolved since 9/
11.
    Today, al-Qaeda is also frequently spoken of as if it is in 
retreat: A broken and beaten organization, incapable of mounting 
further attacks on its own and instead having devolved operational 
authority either to its various affiliates and associates or to 
entirely organically-produced, homegrown, terrorist entities. Nothing 
could be further from the truth. Al-Qaeda in fact is on the march. It 
has regrouped and reorganized from the setbacks meted out to it by the 
United States and our coalition partners and allies during the initial 
phases of the global war on terrorism (GWOT) and is marshalling its 
forces to continue the epic struggle begun now some 10 years ago. Al-
Qaeda is now functioning exactly as its founder and leader, Osama bin 
Laden envisioned it. On the one hand, true to the meaning of the Arabic 
word for the ``base of operation'' or ``foundation'' meaning the base 
or foundation from which worldwide Islamic revolution can be waged (or, 
as other translations have it, the ``precept'' or ``method'') and thus 
simultaneously inspiring, motivating, and animating radicalized Muslims 
to join the movement's fight. While, on the other, continuing to 
exercise its core operational and command and control capabilities--
directing the implementing terrorist attacks.
    The al-Qaeda of today combines, as it always has, both a ``bottom 
up'' approach--encouraging independent thought and action from low- (or 
lower-) level operatives--and a ``top down'' one--issuing orders and 
still coordinating a far-flung terrorist enterprise with both highly 
synchronized and autonomous moving parts. Mixing and matching 
organizational and operational styles whether dictated by particular 
missions or imposed by circumstances, the al-Qaeda movement, 
accordingly, can perhaps most usefully be conceptualized as comprising 
four distinct, though not mutually exclusive, dimensions. In descending 
order of sophistication, they are:

  <bullet> Al-Qaeda Central. This category comprises the remnants of 
        the pre-9/11 al-Qaeda organization. Although its core 
        leadership includes some of the familiar, established 
        commanders of the past, there are a number of new players who 
        have advanced through the ranks as a result of the death or 
        capture of key al-Qaeda senior-level managers such as Abu Atef, 
        KSM, and Hambali, and more recently, Abu Faraj al-Libi and Abu 
        Hamza Rabia. It is believed that this hardcore remains centered 
        in or around the Afghanistan and Pakistan borders and continues 
        to exert actual coordination, if not some direct command and 
        control capability, in terms of commissioning attacks, 
        directing surveillance and collating reconnaissance, planning 
        operations, and approving their execution.

    This category comes closest to the al-Qaeda operational template or 
model evident in the 1998 East Africa embassy bombings and 9/11 
attacks. Such high value, ``spectacular'' attacks are entrusted only to 
al-Qaeda's professional cadre: The most dedicated, committed, and 
absolutely reliable element of the movement. Previous patterns suggest 
that these ``professional'' terrorists are deployed in predetermined 
and carefully selected teams. They will also have been provided with 
very specific targeting instructions. In some cases, such as the East 
Africa bombings, they may establish contact with, and enlist the 
assistance of, local sympathizers and supporters. This will be solely 
for logistical and other attack-support purposes or to enlist these 
locals to actually execute the attack(s). The operation, however, will 
be planned and directed by the ``professional'' element with the locals 
clearly subordinate and playing strictly a supporting role (albeit a 
critical one).

  <bullet> Al-Qaeda Affiliates and Associates. This category embraces 
        formally established insurgent or terrorist groups that over 
        the years have benefited from bin Laden's largesse and/or 
        spiritual guidance and/or have received training, arms, money, 
        and other assistance from al-Qaeda. Among the recipients of 
        this assistance have been terrorist groups and insurgent forces 
        in Uzbekistan and Indonesia, Morocco and the Philippines, 
        Bosnia and Kashmir, among other places. By supporting these 
        groups, bin Laden's intentions were threefold. First, he sought 
        to co-opt these movements' mostly local agendas and channel 
        their efforts toward the cause of global jihad. Second, he 
        hoped to create a jihadi ``critical mass'' from these 
        geographically scattered, disparate movements that would one 
        day coalesce into a single, unstoppable force. And, third, he 
        wanted to foster a dependent relationship whereby as a quid pro 
        quo for prior al-Qaeda support, these movements would either 
        undertake attacks at al-Qaeda's behest or provide essential 
        local, logistical, and other support to facilitate strikes by 
        the al-Qaeda ``professional'' cadre noted above.

    This category includes groups such as: al-Ittihad al-Islami (AIAI), 
the late Abu Musab Zarqawi's al-Qaeda in Mesopotamia (formerly Jamaat 
al Tawhid wa'l Jihad), Asbat al-Ansar, Ansar al Islam, Islamic Army of 
Aden, Islamic Movement of Uzbekistan (IMU), Jemaah Islamiya (JI), 
Libyan Islamic Fighting Group (LIFG), Moro Islamic Liberation Front 
(MILF), Salafist Group for Call and Combat (GSPC), and the various 
Kashmiri Islamic groups based in Pakistan--e.g., Harakat ul Mujahidin 
(HuM), Jaish-e-Mohammed (JeM), Laskar-e-Tayyiba (LeT), and Laskar i 
Jhangvi (LiJ). Both the number and geographical diversity of these 
entities is proof of al-Qaeda's continued influence and vitality.

  <bullet> Al-Qaeda Locals. These are dispersed cells of al-Qaeda 
        adherents who have or have had some direct connection with al-
        Qaeda--no matter how tenuous or evanescent. They appear to fall 
        into two subcategories.

    One category comprises persons who have had some prior terrorism 
experience--having been blooded in battle as part of some previous 
jihadi campaign in Algeria, the Balkans, Chechnya, and perhaps more 
recently in Iraq, and may have trained in some al-Qaeda facility 
whether in Afghanistan or Yemen or the Sudan before 9/11. Specific 
examples of this adversary include Ahmed Ressam, who was arrested in 
December 1999 at Port Angeles, Washington State, shortly after he had 
entered the United States from Canada. Ressam, for instance, had a 
prior background in terrorism, having belonged to Algeria's Armed 
Islamic Group (GIA). After being recruited to al-Qaeda, he was provided 
with a modicum of basic terrorist training in Afghanistan. In contrast 
to the professional cadre detailed above, however, Ressam was given 
very nonspecific, virtually open-ended targeting instructions before 
being dispatched to North America. Also, unlike the well-funded 
professional cadre, Ressam was given only $12,000 in ``seed money'' and 
instructed to raise the rest of his operational funds from petty 
thievery. He was also told by KSM to recruit members for his terrorist 
cell from among the expatriate Muslim communities in Canada and the 
United States. The al-Qaeda operative, Andrew Rowe, a British national 
and Muslim convert, convicted for his involvement in the 2003 al-Qaeda 
plot to attack London's Heathrow Airport is another example of this 
category.
    The other category, as is described in the detailed discussion of 
the 7/7 London attacks below, conforms to the profile of the four 
British Muslims responsible for the 2005 bombings of mass transit 
targets in London. In contrast to Ressam and Rowe, none of the four 
London bombers had previously fought in any of the contemporary, iconic 
Muslim conflicts (e.g., Algeria, Chechnya, Kashmir, Bosnia, 
Afghanistan, etc.) nor is there conclusive evidence of their having 
received any training in an al-Qaeda camp in Afghanistan, Yemen, or the 
Sudan prior to 9/11. Rather, at least the two ringleaders of the London 
cell were recruited locally, brought to Pakistan for training and then 
returned to their homeland with both an attack plan and the knowledge 
to implement. They recruited others locally as needed, into the cell 
and undertook a relatively simple, but nonetheless sophisticated and 
highly consequential attack.
    In both the above categories, however, the terrorists will have 
some link with al-Qaeda. Their current relationship, and communication, 
with a central al-Qaeda command and control apparatus may be either 
active or dormant and similarly their targeting choices may either be 
specifically directed or else entirely left to the cell to decide. The 
distinguishing characteristic of this category, however, is that there 
is some previous direct connection of some kind with al-Qaeda.

  <bullet> Al-Qaeda Network. These are home-grown Islamic radicals--
        from North Africa, the Middle East, and South and Southeast 
        Asia--as well as local converts to Islam mostly living in 
        Europe, Africa, and perhaps Latin America and North America as 
        well, who have no direct connection with al-Qaeda (or any other 
        identifiable terrorist group), but nonetheless are prepared to 
        carry out attacks in solidarity with or support of al-Qaeda's 
        radical jihadi agenda. Like the ``al-Qaeda locals'' they too 
        are motivated by a shared sense of enmity and grievance felt 
        toward the United States and West, in general, and their host-
        nations in particular. In this specific instance, however, the 
        relationship with al-Qaeda is more inspirational than actual, 
        abetted by profound rage over the United States' invasion and 
        occupation of Iraq and the oppression of Muslims in Palestine, 
        Kashmir, Chechnya, and elsewhere. Critically, these persons are 
        neither directly members of a known, organized terrorist group 
        nor necessarily even a very cohesive entity unto themselves.

    Examples of this category, which comprises small collections of 
like-minded locals who gravitate toward one to plan and mount terrorist 
attacks completely independent of any direction provided by al-Qaeda, 
include the so-called Hofstad Group in the Netherlands, a member of 
whom (Mohammed Bouyeri) murdered the Dutch filmmaker, Theo Van Gogh, in 
Amsterdam in November 2004.
    The most salient threat posed by the above categories, however, 
continues to come from al-Qaeda Central and from its affiliates and 
associates. However, an additional and equally challenging threat is 
now posed by less discernible and more unpredictable entities drawn 
from the vast Muslim Diaspora in Europe. As far back as 2001, the 
Netherlands' intelligence and security service had detected increased 
terrorist recruitment efforts among Muslim youth living in the 
Netherlands whom it was previously assumed had been completely 
assimilated into Dutch society and culture. Thus, representatives of 
Muslim extremist organizations--including, presumably, al-Qaeda had 
already succeeded in embedding themselves in, and drawing new sources 
of support from, receptive elements within established Diaspora 
communities. In this way, new recruits could be drawn into the movement 
who likely had not previously come under the scrutiny of local or 
national law enforcement agencies.
    This new category of terrorist adversary, moreover, also has proven 
more difficult for the authorities in these countries to track, 
predict, and anticipate. The director of GCHQ (Government 
Communications Headquarters), Britain's equivalent of our NSA (National 
Security Agency) admitted this in testimony before a Parliamentary 
committee investigating the 7/7 attacks. ``We had said before July 
[2005],'' Sir David Pepper noted, there are probably groups out there 
that we do not know anything about, and because we do not know anything 
about them we do not know how many there are. What happened in July 
[the 2005 London bombings] was a demonstration that there were 
[material redacted for security reasons] conspiracies going on about 
which we essentially knew nothing, and that rather sharpens the 
perception of how big, if I can use [Secretary of Defense Donald] 
Rumsfeld's term, the unknown unknown was.
    This adversary, comprising hitherto unknown cells, is difficult, if 
not impossible, to effectively profile. Indeed, this was precisely the 
conclusion reached by the above-mentioned Parliamentary committee in 
their report on the London bombings. Although the members of these 
terrorist cells may be marginalized individuals working in menial jobs 
from the lower socioeconomic strata of society, some with long criminal 
records or histories of juvenile delinquency; others may well come from 
solidly middle and upper-middle class backgrounds with university and 
perhaps even graduate degrees and prior passions for cars, sports, rock 
music, and other completely secular, material interests. For example, 
in the case of radicalized British Muslims, since 9/11 we have seen 
terrorists of South Asian and North African descent as well as those 
hailing both from the Middle East and Caribbean. They have included 
life-long devout Muslims as well as recent converts. Persons from the 
margins of society who made a living as thieves or from drug dealing 
and students at the London School of Economics, one of the U.K.'s 
premiere universities. This was not a sentence. What they will have in 
common is a combination of a deep commitment to their faith--often 
recently rediscovered; admiration of bin Laden for the cathartic blow 
struck against America on 9/11; hatred of the United States and the 
West; and, a profoundly shared sense of alienation from their host 
countries. ``There appear to be a number of common features to this 
grooming,'' the report of the Intelligence and Security Committee of 
the U.K. House of Commons concluded.
    In the early stages, group conversation may be around being a good 
Muslim and staying away from drugs and crime, with no hint of an 
extremist agenda. Gradually individuals may be exposed to propaganda 
about perceived injustices to Muslims across the world with 
international conflict involving Muslims interpreted as examples of 
widespread war against Islam; leaders of the Muslim world perceived as 
corrupt and non-Islamic; with some domestic policies added as 
``evidence'' of a persecuted Islam; and conspiracy theories abounding. 
They will then move on to what the extremists claim is religious 
justification for violent jihad in the Quran and the Hadith . . . and--
if suicide attacks are the intention--the importance of martyrdom in 
demonstrating commitment to Islam and the rewards in Paradise for 
martyrs; before directly inviting an individual to engage in terrorism. 
There is little evidence of over compulsion. The extremists appear 
rather to rely on the development of individual commitment and group 
bonding and solidarity [my emphasis].
    These new recruits are the anonymous cogs in the world-wide al-
Qaeda enterprise and include both longstanding residents and new 
immigrants found across in Europe, but specifically in countries with 
large expatriate Muslim populations such as Britain, Spain, France, 
Germany, Italy, the Netherlands, and Belgium.
  the perils of wishful thinking: al-qaeda and the 7/7 london bombings
    The United Kingdom, of course, rightly prides itself on decades-
long experience and detailed knowledge of effectively countering a 
variety of terrorist threats. Over the past dozen years the U.K. 
homeland itself has been subject to attack from a diversity of 
adversaries including: the Provisional Irish Republican Army, renegade 
Palestinian factions, and both before and since 9/11 by al-Qaeda as 
well. Yet, despite Britain's formidable counterterrorist capabilities 
and unrivaled expertise, only a month before the 7 July 2005 London 
bombings, the Joint Terrorism Assessment Center (JTAC), the British 
counterpart of our own NCTC (National Counter-
terrorism Center) concluded that, ``at present there is not a group 
with both the current intent and the capability to attack in the U.K.'' 
and consequently downgraded the overall threat level for the U.K.
    More astonishing perhaps was the dismissal of the prospect of 
suicide terrorist attacks occurring in the United Kingdom, despite the 
emerging global pattern of terrorism in this respect and the 
involvement of several British nationals in both attempted and 
successful suicide attacks elsewhere. Seventy-eight percent of all the 
suicide terrorist incidents perpetrated between 1968 and 2004, for 
instance, have occurred in the years following 9/11. And, the dominant 
force behind this trend is religion--specifically groups and 
individuals identifying themselves as Islamic. Indeed, of the 35 
terrorist organizations currently employing suicide tactics, 86 percent 
(31 of 35) are Islamic. These movements, moreover, have been 
responsible for 81 percent of all suicide attacks since 9/11. Indeed, 
to date, suicide attacks have taken place in at least two dozen 
countries--including the United Kingdom, Israel, Sri Lanka, Russia, 
Lebanon, Turkey, Italy, Indonesia, Pakistan, Colombia, Argentina, 
Kenya, Tanzania, Croatia, Morocco, Singapore, the Philippines, Saudi 
Arabia, Kuwait, and Iraq. By comparison, at the dawn of the modern era 
of religious terrorism some 20 years ago, this was a phenomenon 
confined exclusively to two countries: Lebanon and Kuwait, and employed 
by less than a half dozen groups. Yet, only 4 months before the 7/7 
bombings, the Joint Intelligence Committee (JIC), Britain's most senior 
intelligence assessment and evaluation body (one roughly similar to the 
American intelligence community's NIC, or National Intelligence 
Center), judged that ``such attacks would not become the norm within 
Europe.'' This judgment, coupled with the testimony of Dame Eliza 
Manningham-Buller, the Director-General of the Security Service (MI-5), 
prompted the aforementioned Parliamentary committee to conclude that 
``The fact that there were suicide attacks in the U.K. on 7 July was 
clearly unexpected. The Director General of the Security Service said 
it was a surprise that the first big attack in the U.K. for 10 years 
was a suicide attack.''
    The point of this discussion is most certainly not to criticize our 
principal ally in the war on terrorism but rather to highlight the 
immense difficulties and vast uncertainties concerning countering 
terrorism today that have confounded even the enormously professional 
and experienced British intelligence and security services. Moreover, 
the danger of similarly cloaking ourselves in a false sense of security 
based on faulty assumptions or wishful thinking is omnipresent in so 
fluid and dynamic a terrorism environment as exists today. Indeed, our 
appreciation and understanding of the current al-Qaeda threat further 
underscores these perils. Both at the time of the London bombing 
attacks and since a misconception has frequently been perpetuated that 
this was entirely an organic or homegrown phenomenon of self-
radicalized, self-selected terrorists. Such arguments often were cited 
in support of the argument that entirely homegrown threats had 
superseded those posed of al-Qaeda; that al-Qaeda itself was no longer 
a consequential, active terrorist force; and accordingly that the 
threat had both changed and perhaps even receded. The evidence that has 
come to light since the London attacks a year ago, however, points to 
the opposite conclusion: That al-Qaeda is not only alive and kicking, 
but that it is still actively planning, supporting through the 
provision of training, and perhaps even directing terrorist attacks on 
a global canvas.
    Issues of classification and sensitive collection prevent a full 
description and account of this evidence of active al-Qaeda involvement 
in the London attacks. However, suffice it to say that what is publicly 
known and has been reported in unclassified sources, clearly points to 
such involvement. For instance, the aforementioned report by the 
Parliament's Intelligence and Security Committee, noted among its other 
conclusions, that:

  <bullet> ``Investigations since July have shown that the group [the 
        four London bombers] was in contact with others involved in 
        extremism in the U.K. . . .''
  <bullet> ``Siddique Khan [the group's ringleader] is now known to 
        have visited Pakistan in 2003 and to have spent several months 
        there with Shazad Tanweer [another bomber] between November 
        2004 and February 2005. It has not yet been established who 
        they met in Pakistan, but it is assessed as likely that they 
        had some contact with al-Qaida figures.''
  <bullet> ``The extent to which the 7 July attacks were externally 
        planned, directed, or controlled by contacts in Pakistan or 
        elsewhere remains unclear. The [British intelligence and 
        security] Agencies believe that some form of operational 
        training is likely to have taken place while Khan and Tanweer 
        were in Pakistan. Contacts in the run-up to the attacks suggest 
        they may have had advice or direction from individuals there.''

    More compelling, albeit for the moment necessarily circumstantial, 
evidence may be found in the ``martyrdom'' videos made by Khan and 
Tanweer sometime while they were in Pakistan between November 2004 and 
February 2005. Like all Osama bin Laden's most important video taped 
statements and appearances, the Khan and Tanweer statements were both 
professionally produced and released by al-Qaeda's perennially-active 
communications department, ``Al Sahab [the Clouds] for Media 
Production.''
    The first of the two videos of Khan was broadcast on the Qatar-
based Arabic-language news station, al Jazeera, on 1 September 2005. It 
is worth exploring the content of Khan's statement in some detail since 
it accurately encapsulates the essence of European Muslim radicalism 
today. Kahn's statement is especially noteworthy for the following 
reasons:

  <bullet> He professes his preeminent allegiance to and identification 
        with his religion and the umma--the worldwide Muslim community. 
        Hence, unlike most Western conceptions of identity and 
        allegiance that are rooted to the nation or state, Khan's is 
        exclusively to a theology.
  <bullet> Like all terrorists before him, Khan frames his choice of 
        tactic and justifies his actions in ineluctably defensive 
        terms. He describes his struggle as an intrinsically defensive 
        one and his act as a response to the repeated depredations and 
        unmitigated aggression of the West that have been directed 
        against Muslims worldwide.
  <bullet> The sense of individual empowerment and catharsis evident in 
        Khan's words and demeanor.
  <bullet> The intense desire for vengeance and martyrdom, with the 
        latter regarded by him as ``supreme evidence'' of his religious 
        commitment.
  <bullet> Khan's laudatory comments about bin Laden and his deputy, 
        Ayman al-Zawahiri.

    The relevant portions of Khan's statement are as follows:

  <bullet> I and thousands like me are forsaking everything for what we 
        believe. Our driving motivation doesn't come from tangible 
        commodities that this world has to offer. Our religion is 
        Islam--obedience to the one true God, Allah, and following the 
        footsteps of the final prophet and messenger Muhammad . . . 
        This is how our ethical stances are dictated.
  <bullet> Your democratically elected governments continuously 
        perpetuate atrocities against my people all over the world. And 
        your support of them makes you directly responsible, just as I 
        am directly responsible for protecting and avenging my Muslim 
        brothers and sisters [my emphasis].
  <bullet> Until we feel security, you will be our targets. And until 
        you stop the bombing, gassing, imprisonment, and torture of my 
        people we will not stop this fight. We are at war and I am a 
        soldier. Now you too will taste the reality of this situation . 
        . . .
  <bullet> I myself, I make du'a [calling] to Allah . . . to raise me 
        amongst those whom I love like the prophets, the messengers, 
        the martyrs, and today's heroes like our beloved Sheikh Osama 
        Bin Laden, Dr. Ayman al-Zawahiri and Abu Musab al-Zarqawi, and 
        all the other brothers and sisters that are fighting in . . . 
        this cause.

    Al-Zawahiri in fact appears at the end of the same tape, praising 
Khan for having brought the ``blessed battle . . . to the enemy's 
land.'' In a subsequent video, aired on al Jazeera on 19 September, al-
Zawahiri also claimed responsibility for the attacks in the name of al-
Qaeda. Only last week, a similar martyrdom tape made by Khan's 
traveling companion and fellow bomber, Shahzad Tanweer, was released by 
al Sahab to mark the first anniversary of the London attacks. Titled, 
``The Final Message of the Knights of the London Raid,'' it showed 
Tanweer expressing similar views to those of Khan. ``To the non-Muslims 
of Britain,'' he begins: You may wonder what you have done to deserve 
this. You are those who have voted in your government, who in turn 
have, and still continue to this day, continue to oppress our mothers, 
children, brothers, and sisters from the east to the west, in 
Palestine, Afghanistan, Iraq, and Chechnya. Your government has openly 
supported the genocide of over 150,000 innocent Muslims in Falluja.
    You have offered financial and military support to the United 
States and Israel, in the massacre of our children in Palestine. You 
are directly responsible for the problems in Palestine, Afghanistan, 
and Iraq to this day. You have openly declared war on Islam, and are 
the forerunners in the crusade against the Muslims.
    Al-Zawahiri then appears on screen to explain that, ``What made 
Shehzad join the camps of Qaeda Al-Jihad was the oppression carried out 
by the British in Iraq, Afghanistan, and Palestine. He would often talk 
about Palestine, about the British support of the Jews, and about their 
clear injustice against the Muslims.'' An unidentified narrator then 
continues: In order to remove this injustice, Shehzad [sic] began 
training with all his might and devotion. Together with the martyr 
Siddiq Khan, he received practical and intensive training in how to 
produce and use explosives, in the camps of Qaeda Al-Jihad. The 
recruits who join these camps do not have to achieve high averages or 
to pass entrance exams. All they need is to be zealous for their 
religion and nation, and to love jihad and martyrdom for the sake of 
Allah.
    The video continues with Tanweer warning ``all you British citizens 
to stop your support to your lying British Government, and to the so-
called `war on terror,' and ask yourselves why would thousands of men 
be willing to give their lives for the cause of Muslims.'' Al-Zawahiri 
also again appears to emphasize how both Khan and Tanweer were 
``striving for martyrdom, and were hoping to carry out a martyrdom 
operation. Both of them were very resolute in this.'' Tanweer then 
calls upon his fellow British Muslims to rise and fight the 
``disbelievers, for it is but an obligation made on you by Allah.'' A 
statement is then heard from U.S.-born, Muslim convert Adam Gadahn 
(``Azzam the American'') before concluding with Tanweer threatening 
that: What you have witnessed now is only the beginning of a series of 
attacks, which, in shallah, will intensify and continue until you pull 
all your troops out of Afghanistan and Iraq, until you stop all 
financial and military support to the United States and Israel, and 
until you release all Muslim prisoners from Belmarsh, and your other 
concentration camps. And know that if you fail to comply with this, 
then know that this war will never stop, and that we are ready to give 
our lives, one hundred times over, for the cause of Islam. You will 
never experience peace, until our children in Palestine, our mothers 
and sisters in Kashmir, and our brothers in Afghanistan and Iraq feel 
peace.
               toward a new u.s. counterterrorism policy
    ``Could we, could others, could the police have done better? Could 
we with greater effort, greater imagination, have stopped it? We knew 
there were risks we were running. We were trying very hard and very 
fast to enhance our capacity, but even with the wisdom of hindsight I 
think it is unlikely that we would have done so, with the resources 
available to us at the time and the other demands placed upon us. I 
think that position will remain in the foreseeable future. We will 
continue to stop most of them, but we will not stop all of them.''--
Dame Eliza Manningham-Buller, Director-General, U.K. Security Service 
(MI-5)

    As this discussion of the 7/7 London bombings has shown, al-Qaeda 
and the threat it poses cannot be defeated through military means 
alone. Yet, our policy to date has arguably been predominantly weighted 
toward the tactical ``kill or capture'' approach and metric: Assuming 
that a traditional center of gravity exists whether the target is al-
Qaeda or the insurgency in Iraq and that this target simply needs to be 
destroyed so that global terrorism or the Iraqi insurgency will end. 
However, both our adversaries today and the threats that they pose, are 
much more elusive and complicated and, as the previous discussion of 
the London attacks clearly depicts, less amenable to kinetic solutions. 
As one U.S. intelligence officer with vast experience in this realm 
acerbically told to me nearly 2 years ago: ``We don't have enough 
bullets to kill them all.'' Accordingly, a new strategy and new 
approach is vital. Its success will be predicated upon a strategy that 
effectively combines the tactical elements of systematically destroying 
and weakening enemy capabilities (the ``kill or capture'' approach) 
alongside the equally critical, broader strategic imperative of 
breaking the cycle of terrorist and insurgent recruitment and 
replenishment that have respectively sustained both al-Qaeda's 
continued campaign and the ongoing conflict in Iraq. A successful 
strategy will thus be one that also thinks and plans ahead with a view 
toward addressing the threats likely to be posed by the terrorist and 
insurgent generation beyond the current one.
    At the foundation of such a dynamic and adaptive strategy must be 
the ineluctable axiom that effectively and successfully countering 
terrorism as well as insurgency is not exclusively a military endeavor 
but also involves fundamental parallel political, social, economic, and 
ideological activities. This timeless principle of countering 
insurgency was first defined by Field Marshal Sir Gerald Templer in 
Malaya more than 50 years ago. ``The shooting side of the business is 
only 25 percent of the trouble and the other 75 percent lies in getting 
the people of this country behind us,'' Templer famously wrote in 
November 1952, responding to a terrorist directive from the previous 
year that focused on increasing appreciably the ``cajolery'' of the 
population. Accordingly, rather than viewing the fundamental organizing 
principle of American national defense strategy in this unconventional 
realm as a GWOT, it may be more useful to reconceptualize it in terms 
of a global counterinsurgency (GCOIN). Such an approach would a priori 
knit together the equally critical political, economic, diplomatic, and 
developmental sides inherent to the successful prosecution of 
counterinsurgency to the existing dominant military side of the 
equation.
    Such a new approach would necessarily be built upon a more 
integrated, systems approach to a complex problem that is at once 
operationally durable, evolutionary and elusive in character. Greater 
attention to this integration of American capabilities would provide 
incontrovertible recognition of the importance of endowing a GCOIN with 
an overriding and comprehensive, multi-dimensional policy. Ideally, 
this policy would embrace several elements including a clear strategy, 
a defined structure for implementing it, and a vision of 
intergovernment agency cooperation, and the unified effort to guide it. 
It would have particular benefit with respect to the gathering and 
exploitation of ``actionable intelligence.'' By updating and 
streamlining interagency counterterrorism and counterinsurgency systems 
and procedures both strategically as well as operationally between the 
Department of Defense, the Department of State, and the intelligence 
community, actionable intelligence could likely be acquired, analyzed, 
and disseminated faster and operations mounted more quickly. A more 
focused and strengthened interagency process would also facilitate the 
coordination of key themes and messages and the development and 
execution of long-term ``hearts and minds'' programs.
    The U.S. Government, in sum, will need to adjust and adapt its 
strategy, resources, and tactics to formidable opponents that, as we 
have seen, are widely dispersed and decentralized and whose many 
destructive parts are autonomous, mobile, and themselves highly 
adaptive. In this respect, even the best strategy will be proven 
inadequate if military and civilian agency leaders are not prepared to 
engage successfully within ambiguous environments and reorient their 
organizational culture to deal with irregular threats. A successful 
GCOIN transcends the need for better tactical intelligence or new 
organizations. It is fundamentally about transforming the attitudes and 
mindsets of leaders so that they have the capacity to take decisive, 
yet thoughtful action against terrorists and/or insurgents in uncertain 
or unclear situations based on a common vision, policy, and strategy. 
In addition to traditional ``hard'' military skills of ``kill or 
capture'' and destruction and attrition; ``soft'' skills such as 
information operations, negotiation, psychology, social and cultural 
anthropology, foreign area studies, complexity theory, and systems 
management will become increasingly important in the ambiguous and 
dynamic environment in which irregular adversaries circulate.
    Arguably, by combating irregular adversaries in a more 
collaborative manner with key relevant civilian agencies, military 
planners can better share critical information, track the various 
moving parts in terrorist/insurgency networks, and develop a 
comprehensive picture of this enemy--including their supporters, nodes 
of support, organizational and operational systems, processes, and 
plans. With this information in hand, the United States would then be 
better prepared to systematically disrupt or defeat all of the critical 
nodes that support the entire terrorist/insurgent network, thus 
rendering them ineffective. Achieving this desideratum, however, will 
necessitate the coordination, deconflicting, and synchronization of the 
variety of programs upon which the execution of American 
counterterrorist and/or counter-
insurgency planning are dependent. An equally critical dimension of 
this process will be aligning the training of host nation counterparts 
with GWOT/GCOIN operations: Building synergy; avoiding duplication of 
effort; ensuring that training leads to operational effectiveness; and 
ensuring that the U.S. interagency team and approach is in complete 
harmony. In other words, aligning these training programs (among the 
different government agencies) with GCOIN operations to build 
indigenous capabilities in counterterrorism and counterinsurgency will 
be absolutely fundamental to the success of such a strategy.
    In sum, new times, new threats, and new challenges ineluctably make 
a new strategy, approach, and new organizational and institutional 
behaviors necessary. The threat posed by elusive and deadly irregular 
adversaries emphasizes the need to anchor changes that will more 
effectively close the gap between detecting irregular adversarial 
activity and rapidly defeating it. The effectiveness of U.S. strategy 
will be based on our capacity to think like a networked enemy, in 
anticipation of how they may act in a variety of situations, aided by 
different resources. This goal requires that the American national 
security structure in turn organize itself for maximum efficiency, 
information sharing, and the ability to function quickly and 
effectively under new operational definitions. With this thorough 
understanding in mind, we need to craft an approach that specifically 
takes into account the following key factors to effectively wage a 
GCOIN:

    1. Separating the enemy from the populace that provides support and 
sustenance. This, in turn, entails three basic missions: (a) Denial of 
enemy sanctuary; (b) Elimination of enemy freedom of movement; and (c) 
Denial of enemy resources and support;
    2. Identification and neutralization of the enemy;
    3. Creation of a secure environment--progressing from local to 
regional to global;
    4. Ongoing and effective neutralization of enemy propaganda through 
the planning and execution of a comprehensive and integrated 
information operations and holistic civil affairs campaign in harmony 
with the first four tasks; and
    5. Interagency efforts to build effective and responsible civil 
governance mechanisms that eliminate the fundamental causes of 
terrorism and insurgency.

    In conclusion, al-Qaeda may be compared to the archetypal shark in 
the water that must keep moving forward--no matter how slowly or 
incrementally--or die. In al-Qaeda's context, this means adapting and 
adjusting to our countermeasures while simultaneously searching to 
identify new targets and vulnerabilities. In this respect, al-Qaeda's 
capacity to continue to prosecute this struggle is a direct reflection 
of both the movement's resiliency and the continued resonance of its 
ideology. Accordingly, if the threat we face is constantly changing and 
evolving, so must our policies and responses be regularly reviewed, 
updated, and adjusted. In this struggle, we cannot afford to rest on 
past laurels or be content with security that may have proven effective 
yesterday and today, but could likely prove inadequate tomorrow given 
this process of terrorist change and evolution.
    Al-Qaeda's ``operational durability'' thus has enormous 
significance for U.S. counterterrorism strategy and policy. Because it 
has this malleable resiliency, it cannot be destroyed or defeated in a 
single tactical, military engagement or series of engagements--much 
less ones exclusively dependent on the application of conventional 
forces and firepower. To a significant degree, our ability to carry out 
such missions effectively will depend on the ability of American 
strategy to adjust and adapt to changes we see in the nature and 
character of our adversaries.

    The Chairman. Thank you very much, Dr. Hoffman, for that 
remarkable paper and the insights you have presented to our 
hearing.
    We call now on Mr. Andrew Kohut for his testimony.

           STATEMENT OF MR. ANDREW KOHUT, PRESIDENT,
              PEW RESEARCH CENTER, WASHINGTON, DC

    Mr. Kohut. Thank you for the opportunity to help the 
committee understand the attitudes of people in the Muslim 
world, toward the West, toward the United States, toward the 
issues related to the war on terrorism.
    Since 2002, the Pew Global Attitudes Project which I direct 
has interviewed more than 110,000 people in 50 countries, many 
of them Arab countries or predominantly Muslim countries in 
Africa and in Asia. I would like to do two things today: To 
update you on views toward the United States and the attitudes 
toward terrorism in the Muslim countries, but also tell you 
about a new survey that we conducted this year which was a 
broader investigation about how people in the Muslim world and 
Westerners view each other on a personal and individual level, 
and I think it has great bearing on the work of this committee.
    First, the Global Attitudes Project has more generally 
documented the rise of anti-Americanism around the world since 
its inception in 2002. We have seen this to be especially the 
case in Muslim countries. Our most recent polls have found that 
the American people and the United States are viewed 
unfavorably in virtually all of the Muslim countries in which 
we have conducted surveys.
    This is even the case in countries that are closely allied 
with the United States. For example, in Turkey just 12 percent 
of the people that we interviewed have a favorable view of the 
United States. Back in 2000 that was as high as 52 percent. 
Similarly, in Jordan 15 percent hold a positive view of the 
United States; in Pakistan, 27 percent hold a positive view of 
the United States.
    The numbers are not very good anywhere. Of all of the 
countries that we have interviewed in 2 years that are 
predominantly Muslim, only in Morocco have we seen close to a 
majority saying anything positive about the United States. And, 
unlike in much of the rest of the world, the complaints aren't 
restricted just to the government, to the country at large, but 
also to the American people, who are held in low regard in the 
Muslim world.
    Anti-Americanism in the Muslim world is driven by the 
United States' policies: the war in Iraq, most recently; the 
war on terrorism, generally; United States' support for Israel, 
probably most fully; and the general perception that the United 
States conducts its foreign policy unilaterally.
    I'd like to just give you a quick overview of the important 
trends that we've seen in the past 5 years. First of all, anti-
Americanism existed before the war in Iraq, in the Mideast and 
in Central Asia, but with the war in Iraq it really 
intensified. But the biggest impact is that with the war in 
Iraq, anti-Americanism became a global phenomenon in the Muslim 
world. We saw anti-Americanism, dislike of the country and the 
people, grow tremendously in Africa and in Asia where 
previously that had not been the case, notably in Indonesia, 
notably in Nigeria.
    Second, the war on terrorism, while viewed with increasing 
suspicion among our European allies, has never been accepted in 
the Muslim world. It's seen as the United States picking on 
Muslim countries, as protecting Israel, and attempting to 
control the world.
    Third, there has been substantial support for terrorism and 
terrorists among Muslim publics. Sizeable minorities in many 
Muslim countries have said that suicide bombings that target 
civilians in defense of Islam are sometimes or often 
justifiable, and significant numbers of people in many of these 
countries have expressed admiration and a positive view of 
Osama bin Laden.
    While these trends have been mostly negative, we have seen 
some positive signs, too. The image of the United States 
improved markedly in Indonesia and somewhat even in Pakistan in 
response to the aid that we gave to victims of natural 
disasters in those countries.
    We have seen support for terrorism decline somewhat in a 
number of countries, especially those who have had their own 
experience with it, in Morocco, Indonesia, Pakistan, and most 
recently in Jordan. Support for suicide bombing or believing 
that suicide bombing is justifiable decreased in the aftermath 
of attacks in those countries.
    But while there is less support for suicide bombing and a 
less favorable regard for bin Laden, support for terrorism has 
far from disappeared in the Muslim world. In the survey that we 
conducted this year, 28, 29 percent of Jordanians and Egyptians 
see suicide bombing that targets civilians as justifiable.
    Finally, our polling has found Muslims consistently saying 
that Western-style democracy can work in their countries, and 
that's a good thing. And despite the fact that they can't say, 
it's very difficult for them to say good things about the 
United States, they do tell us that they think that the United 
States supports democracy in their country.
    These are among the broad, general trends that we have 
found in the Muslim world and in the Mideast, specifically. Now 
I want to turn to what we have learned in our most recent 
survey about how Muslim publics and Western publics view each 
other. That was the focus of our research in the current 
polling.
    In the Muslim world, we did surveys in Indonesia, Pakistan, 
Jordan, Egypt, Turkey, and also in Nigeria, the Muslim part of 
Nigeria, which is about 50 percent of that country. In the 
West, we polled the United States, Britain, France, Germany, 
and Spain, but we also made a special effort to interview the 
Muslim minorities in the four European countries: Britain, 
France, Germany, and Spain.
    Our overall conclusion in this survey was that a real 
divide does exist between the people of both cultures. The one 
thing that the Muslims and the Western respondents agreed on is 
that relations aren't good. That was the view of 70 percent of 
Germans, 55 percent of Americans, but it was matched by 64 
percent of Turks and 58 percent of Egyptians who agree that the 
West and the Muslim people are not getting along very well.
    When we probed the image of each people among the other, we 
saw very negative stereotyping. Westerners see Muslims as 
fanatical, violent, and not tolerant. Muslims see Westerners as 
selfish, immoral, greedy, as well as violent and fanatical. 
There's a lot of finger-pointing clearly going on in the way 
Westerners and Muslims look at each other.
    And last year's controversy over the cartoons of Mohammed 
in Europe really highlighted it. Muslims saw Western disrespect 
for the Islamic religion. Westerners saw the Muslims as 
intolerant and not respecting freedom of expression. There are 
also very competing views about women. Each culture says the 
other side is not respectful of the way women are treated in 
their world.
    Our second conclusion is that many Muslim publics have an 
aggrieved view of the West. Many blame U.S. and Western 
policies for the lack of prosperity in the Muslim world. 
Muslims feel more embittered toward the West and its people 
than vice versa. Muslim publics attribute more negative 
qualities to Western people than Westerners do to Muslims. They 
also rate Christians and especially Jews far less favorably 
than Europeans and Americans evaluate Muslim people.
    Most Muslims--one of the most shocking findings of this 
survey, at least to me, was that most Muslims remain 
unconvinced that a group of Arab men carried out the 9/11 
attacks. In Indonesia, 65 percent said, ``No, it didn't happen 
that way.'' In Jordan, 53 percent said it didn't happen that 
way. Even in Turkey, 59 percent said it didn't happen that way. 
This is the same question that the Gallup organization had 
asked in about January or February of 2002, right after the 
attacks, and basically we found the same answers that Gallup 
found: Most Muslim publics in denial about who carried out 
these attacks.
    On the other hand, while there is this aggrieved view in 
the Muslim world, Westerners are skeptical of Muslim values. 
Westerners, more often than Muslims, see a conflict between 
Islam and modernity. Westerners are less optimistic about the 
prospects for democracy in the Muslim world than are Muslims 
themselves, who, as I said earlier, have consistently told us 
that they believe Western-style democracy will work there.
    This may reflect, the views of Westerners may reflect that 
Americans and Western Europeans are very dismayed about the 
Hamas election victory in Palestine, but certainly Muslim 
publics are not. They see it as good for the Palestinian 
people. They see it as good for the resolution of the conflict 
with Israel. Westerners also see more support for al-Qaeda in 
the Muslim world than do Muslims.
    This poll has a lot of negative findings. We did find some 
positive things. First of all, there is not--following a bad 
year of riots and the 7/7 bombings, we didn't see an outright 
spike in hostility between Muslims and Westerners. The 
attitudes that I'm speaking about are of a more long-lasting, 
enduring nature. Majorities in France, Britain, and the United 
States retain generally favorable views of Muslims.
    And, as I said earlier, there has been another decline in 
support for suicide bombing in a number of countries, but there 
still remains considerable support. Sizeable majorities in 
major Muslim countries say suicide bombing can be justified. 
Even among Europe's moderate Muslims, which I'll tell you a 
little bit more about, one in seven feels suicide bombings that 
target civilians can be justified under certain circumstances 
in defense of Islam.
    I have to tell you, though, that the most troubling numbers 
are the ones that we got out of Nigeria. In Nigeria, 61 percent 
of the people that we interviewed, the Muslims that we 
interviewed, said they had a favorable view of Osama bin Laden, 
and 56 percent say most of the people that they know support 
radical groups like al-Qaeda.
    We haven't gone back into Africa in any great detail since 
2002. I did note the change in opinion. When we do go back, we 
can only hope that what we found in Nigeria isn't echoed among 
other Muslim publics.
    With regard to the European Muslims, they hold a more 
temperate view of the West than do Muslims in the Mideast and 
Asia and Africa. European Muslims have more positive views of 
Westerners than those in the countries back home. They are less 
likely than other Europeans to see a conflict between modernity 
and Islam. They think it can work.
    Most European Muslims expressed favorable opinions of 
Christians, and more favorable opinions of Jews than do Muslims 
in other countries. In France, in particular, there are 
relatively positive views among French Muslims of Jews.
    Muslims in Europe do worry about their future, but their 
concern is more economic than religious or cultural. Generally, 
European Muslims show signs of favoring a moderate version of 
Islam.
    One of the things I would like to emphasize, if you look at 
our study carefully, there is no clear European point of view 
about Muslims. There is not a clear European Muslim point of 
view. The views of French, German, Spanish, and British Muslims 
are quite distinct.
    British Muslims are the most anxious about their future, 
they're the most concerned about extremism, but they have the 
largest minority expressing very antagonistic views toward 
Westerners. French Muslims are the most integrated, eager to be 
part of the French society, and most welcomed by the general 
public. German Muslims are the most likely to consider 
Europeans hostile, and the German public is least accepting of 
Muslim immigrants of the four publics that we've questioned.
    I would like to conclude that it's no secret that the 
United States has an image problem in the Muslim world. Iraq 
has intensified it and broadened discontent with America and 
its people among Muslims in the Mideast, Africa, and Asia. 
There is little sign in our surveys that this has meaningfully 
changed over the past 3 years.
    In some predominantly Muslim countries, things have gotten 
better. In other countries, things have gotten a little worse. 
But the bottom line remains the same: We are poorly regarded by 
most Muslim people, and significant numbers of them express at 
least tacit support for terrorist tactics and the enemies of 
the United States, although the trends have been going in the 
right direction on these measures.
    As the events of the past year in Europe have indicated, 
there is a broad divide between Westerners and Muslims around 
the world. Misunderstanding, value differences, economic-based 
resentment have led to suspicion and a mutually acknowledged 
divide or clash of civilizations.
    The good news is that Muslims in Europe are nonetheless far 
more moderate and positive toward the West than Muslims living 
in the Mideast, Africa, and Asia. Their attitudes and the 
attitudes of the general population in the host countries 
suggest that exposure might indeed lead to improved 
understanding, mostly. Thank you very much.
    [The prepared statement of Mr. Kohut follows:]

  Prepared Statement of Andrew Kohut, President, Pew Research Center, 
                             Washington, DC

    Thank you for the opportunity to help the committee better 
understand the attitudes of people in the Muslim world toward the West, 
the United States in particular, and issues related to the war on 
terrorism.
    Since its first public opinion survey in 2002, the Pew Global 
Attitudes project has conducted seven surveys totaling 110,000 
interviews in 50 nations, including many Arab and majority Muslim 
countries.\1\ I would like to do two things today: First, give you an 
update on the image of the United States and attitudes toward terrorism 
in Muslim countries and, second, tell you about the results of a 
broader investigation that we made in this year's survey regarding how 
Muslims and Westerners regard each other.
---------------------------------------------------------------------------
    \1\ Full details of the surveys in this program can be found at 
www.pewglobal.org.

                                     FAVORABLE OPINION OF THE UNITED STATES
                                              [Amounts in percent]
----------------------------------------------------------------------------------------------------------------
                                                             1999/
                                                              2000     2002     2003     2004     2005     2006
----------------------------------------------------------------------------------------------------------------
Egypt.....................................................       --       --       --       --       --       30
Jordan....................................................       --       25        1        5       21       15
Morocco...................................................       77       --       27       27       49       --
Lebanon*..................................................       --       30       15       --       22       --
Turkey....................................................       52       30       15       30       23       12
Pakistan..................................................       23       10       13       21       23       27
Indonesia.................................................       --       61       15       --       38       30
Nigeria*..................................................       --       72       38       --       --       32
----------------------------------------------------------------------------------------------------------------
*Muslims only.
 
1999/2000 trends from Office of Research, U.S. Dept. of State.

    First, since their inception, our surveys have documented the rise 
of anti-Americanism around the world, but especially in predominately 
Muslim countries. In our most recent polls, the United States and the 
American people are regarded unfavorably by sizable majorities among 
seven of eight Muslim publics surveyed.

                   DISLIKE OF AMERICANS TOO--2005/2006
                          [Amounts in percent]
------------------------------------------------------------------------
                                    Favorable   Unfavorable       DK
------------------------------------------------------------------------
Egypt............................           36           63        1=100
Jordan...........................           38           61        1=100
Morocco..........................           62           30         7=99
Lebanon*.........................           22           47        1=100
Turkey...........................           17           69       14=100
Pakistan.........................           27           52        20=99
Indonesia........................           36           60        5=101
Nigeria*.........................           23           75        3=101
------------------------------------------------------------------------
*Muslims only.
 
Figures for Morocco and Lebanon are from 2005.

    Most troubling is the extent of anti-Americanism in countries that 
are important allies of the United States. In Turkey, just 12 percent 
hold a positive opinion of the United States, down from as high as 52 
percent in 2000. Similarly, only 15 percent in Jordan and 27 percent in 
Pakistan rate the United States positively. Views of the American 
people are only somewhat more favorable than opinions of the United 
States generally in the Mideast and among Muslims in Asia and Africa.

                                          SUPPORT FOR SUICIDE BOMBING*
                                              [Amounts in percent]
----------------------------------------------------------------------------------------------------------------
                                                                  Violence against civilian targets justified
                                                             ---------------------------------------------------
                                                                 Often/
                                                               Sometimes      Rarely       Never          DK
----------------------------------------------------------------------------------------------------------------
Jordan......................................................           29           28           43        *=100
    Spring 2005.............................................           57           31           11        1=100
    Summer 2002.............................................           43           22           26         8=99
Egypt.......................................................           28           25           45        3=101
Turkey......................................................           17            9           61       14=101
    Spring 2005.............................................           14            6           66        13=99
    March 2004..............................................           15            9           67        9=100
    Summer 2002.............................................           13            7           64        14=98
Pakistan....................................................           14            8           69         8=99
    Spring 2005.............................................           25           19           46       10=100
    March 2004..............................................           41            8           35       16=100
    Summer 2002.............................................           33            5           38        23=99
Indonesia...................................................           10           18           71        1=100
    Spring 2005.............................................           15           18           66        1=100
    Summer 2002.............................................           27           16           54        3=100
Nigeria.....................................................           46           23           28        3=100
----------------------------------------------------------------------------------------------------------------
* Asked of Muslims only.

    Anti-Americanism is largely driven by aversion to United States 
policies, such as the war in Iraq, the war on terrorism, and United 
States support for Israel, in addition to the general perception that 
the United States fails to consider the interests of other countries 
when it acts in the international arena. Here are some important trends 
that we have seen over the past 5 years:

  <bullet> Anti-Americanism worsened in the Mideast in response to the 
        war in Iraq--but it soared among Muslims in other parts of the 
        world that previously did not view the United States poorly--
        notably in Indonesia and Nigeria.
  <bullet> The war on terrorism, while viewed with increasing suspicion 
        among our European allies, has never been accepted as 
        legitimate by Muslims. It has been seen as the United States 
        picking on Muslim countries, protecting Israel, and attempting 
        to control the world.
  <bullet> There has been substantial support for terrorism and 
        terrorists among Muslim publics. Sizable minorities in many 
        Muslim countries have said that suicide bombings that target 
        civilians can often or sometimes be justified in defense of 
        Islam and appreciable numbers have expressed support for Osama 
        bin Laden.

    But while the trends have been mostly negative, we have seen some 
positive signs too:

  <bullet> The image of the United States improved markedly in 
        Indonesia in 2004 and slightly in Pakistan in 2005 in response 
        to United States aid to victims of natural disasters in these 
        countries.
  <bullet> Support for terrorism has declined somewhat in a number of 
        countries, especially those that have had their own experience 
        with it. We have seen this in Morocco, Indonesia, Pakistan, 
        and, most recently and dramatically, Jordan, following last 
        year's attack in Amman.

    It is important to note, however, that while we see less support 
for suicide bombing and less favorable regard for bin Laden, support 
for terrorism has far from disappeared in the Muslim world.

  <bullet> Finally, our polling has found Muslims consistently saying 
        that Western-style democracy can work in their countries and, 
        despite their dislike of the United States, many believe that 
        the United States supports increased democracy in their 
        countries.

    These are among the most important findings among Muslims in our 
recent surveys, specifically about the United States and American 
policies. Our polling this year looked at a broader question that is 
pertinent to the work of this committee--how do Western and Muslim 
publics view each other?
    In the Muslim world we polled in Indonesia, Pakistan, Jordan, 
Egypt, and Turkey. In the West, the survey included the United States, 
Great Britain, France, Germany, and Spain. We interviewed the Muslim 
minorities in the four European countries, as well, to get some insight 
into the views of this rapidly growing segment of the population.
    Our overall conclusion is that a real divide exists between Western 
and Muslim people, reflected by a year marked by riots over cartoon 
portrayals of Muhammad, a major terrorist attack in London, and 
continuing wars in Iraq and Afghanistan.
    The rare point of consensus in the survey was that both Muslims and 
Westerners are convinced that relations between the peoples are 
generally bad. In the West, 70 percent of Germans and 55 percent of 
Americans think so. This is matched by 64 percent of Turks and 58 
percent of Egyptians who believe this, too. Large majorities of Muslims 
blame Westerners for the problem. Many Europeans and Americans point 
their fingers at the Muslims, but many in the West also accept some 
responsibility for the problem.

                    ARE MUSLIMS RESPECTFUL OF WOMEN?
                          [Amounts in percent]
------------------------------------------------------------------------
                                                          Yes*      No
------------------------------------------------------------------------
Non-Muslims in:
  Great Britain.......................................      26       59
  France..............................................      23       77
  United States.......................................      19       69
  Germany.............................................      17       80
  Spain...............................................      12       83
------------------------------------------------------------------------
*Percentage who associate characteristic with Muslims/people in Western
  countries.


                   ARE WESTERNERS RESPECTFUL OF WOMEN?
                          [Amounts in percent]
------------------------------------------------------------------------
                                                          Yes*      No
------------------------------------------------------------------------
Muslims in:
  Spain...............................................      82       13
  France..............................................      77       23
  Germany.............................................      73       22
  Great Britain.......................................      49       44
  Turkey..............................................      42       39
  Egypt...............................................      40       52
  Indonesia...........................................      38       50
  Jordan..............................................      38       53
  Pakistan............................................      22       52
------------------------------------------------------------------------
*Percentage who associate characteristic with Muslims/people in Western
  countries.

    Each side has a mostly negative image of the other people. 
Westerners see Muslims as fanatical, violent, and not tolerant. Muslims 
see Westerners as selfish, immoral, and greedy, as well as violent and 
fanatical.
    Last year's controversy over cartoons of Muhammad highlights the 
divide between Muslims and the West. Most people in Jordan, Egypt, 
Indonesia, and Turkey blame the controversy on Western nations' 
disrespect for the Islamic religion. In contrast, majorities of 
Americans and Western Europeans who have heard of the controversy say 
Muslims' intolerance to different points of view is more to blame.
    The chasm between Muslims and the West is also seen in judgments 
about how the other civilization treats women. Western publics, by 
lopsided margins, do not think of Muslims as ``respectful of women.'' 
But half or more in four of the five Muslim publics surveyed say the 
same thing about people in the West.
    A second conclusion of the poll is that Muslims have an aggrieved 
view of the West. Many blame United States and Western policies for 
their lack of prosperity. For example, this is the opinion of 66 
percent of Jordanians and 59 percent of Egyptians who think that their 
country should be more prosperous than it is. Westerners most often 
point to government corruption and Muslim fundamentalism as the cause 
of the problem.

                   DID ARABS CARRY OUT 9/11 ATTACKS?*
                          [Amounts in percent]
------------------------------------------------------------------------
                                                          Yes       No
------------------------------------------------------------------------
British Muslims.......................................      17       56
French Muslims........................................      48       46
 German Muslims.......................................      35       44
Spanish Muslims.......................................      33       35
Indonesia.............................................      16       65
Egypt.................................................      32       59
Turkey................................................      16       59
Jordan................................................      39       53
Pakistan..............................................      15       41
Nigerian Muslims......................................      42       47
------------------------------------------------------------------------
*Asked of Muslims only.

    A number of measures in these surveys show Muslims feeling more 
embittered toward the West and its people than vice versa. They 
attribute more negative qualities to Western people than Westerners do 
to Muslims. They also rate Christians and Jews less favorably than 
Europeans and Americans rate Muslims. One of the startling findings of 
the survey is that most Muslims remain unconvinced that Arabs carried 
out the September 11 attacks. In Indonesia, 65 percent, in Jordan 53 
percent, and in Turkey 59 percent deny that the attacks were carried 
out by Arab men.
    While Muslims feel aggrieved, Westerners are skeptical and wary of 
Muslim values. For example, Western Europeans and Americans see a 
conflict between Islam and modernity more often than do Muslims 
themselves. Westerners also see somewhat more support for al-Qaeda in 
the Muslim world than do Muslims. The current poll finds Europeans are 
less optimistic about prospects for democracy in Muslim countries than 
Muslims are. This may reflect our finding that Americans and Western 
Europeans are dismayed over the Hamas election victory. Muslims in the 
Mideast, Asia, and Africa see this as a positive development for the 
Palestinian people.
    In this regard, this year's poll also finds increasing sympathy for 
Israel in Western Europe. Europeans do not match American public 
opinion--where the percentage sympathetic to Israelis is more than 
three times greater than that sympathetic to Palestinians--but it is 
moving in that direction.
    The good news in this poll is that even after a bad year, there was 
not a spike in outright hostility toward Muslims among Westerners or 
vice versa. These negative perceptions are of a more long-standing 
nature. And, as noted above, this poll shows a decline in support for 
terrorism in important Muslim countries. However, having said that, 
sizable minorities in major Muslim countries say suicide bombing can be 
justified. Even among Europe's Muslims, one-in-seven feel suicide 
bombings against civilian targets can be justified.
    Osama bin Laden is viewed positively by one-in-three in Pakistan 
and Indonesia and one-in-four in Egypt and Jordan. The most troublesome 
numbers are out of Nigeria, where 61 percent of Muslims in that 
religiously divided country express confidence in bin Laden. Muslims 
there are highly critical of Westerners and no fewer than 56 percent 
say that most or many of their countrymen support extremist groups like 
al-Qaeda--by far the highest in the poll.
    In sharp contrast, the survey found that European Muslims hold more 
temperate views of the West than do Muslims in the Mideast, Africa, and 
Asia. Muslims in Great Britain, France, Germany, and Spain have more 
positive views of Westerners than do Muslims in the Mideast and Asia. 
They largely hold positive views toward Christians and have less 
negative views of Jews than do Muslims in the Mideast and Asia. This is 
especially true in France.
    The survey did find that Muslims in Europe worry about their 
future, but their concern is more economic than religious or cultural. 
And while there are some signs of tension between Europe's majority 
populations and its Muslim minorities, Muslims there do not generally 
believe that most Europeans are hostile toward people of their faith.

  MUSLIMS MORE CONCERNED ABOUT UNEMPLOYMENT THAN RELIGIOUS AND CULTURAL
                                 ISSUES
                          [Amounts in percent]
------------------------------------------------------------------------
                                                Muslims in
                                 ---------------------------------------
                                    Great
                                   Britain   France    Germany    Spain
------------------------------------------------------------------------
Very worried about:
  Unemployment..................        46        52        56        55
  Islamic extremism.............        44        30        23        22
  Decline of religion...........        45        21        18        18
  Influence of pop culture......        44        17        18        17
  Modern roles for women........        22        16         9        10
------------------------------------------------------------------------

    Despite some tension, there is little evidence of a widespread 
backlash against Muslim immigrants among the general publics in Great 
Britain, France, Germany, and Spain. Majorities continue to express 
concerns about rising Islamic identity and extremism, but those worries 
have not intensified in most of the countries surveyed over the past 12 
turbulent months. Still, over a third of Muslims in France and one-in-
four in Spain say they have had a bad experience as a result of their 
religion or ethnicity.

                    EXPERIENCES OF MUSLIMS IN EUROPE
                          [Amounts in percent]
------------------------------------------------------------------------
                                                Europeans     Had a bad
                                               hostile to     personal
                                                Muslims?     experience?
                                             ---------------------------
                                                  Yes*           Yes
------------------------------------------------------------------------
Muslims in:
  Germany...................................           51            19
  Great Britain.............................           42            28
  France....................................           39            37
  Spain.....................................           31            25
------------------------------------------------------------------------
*Percent saying most or many Europeans are hostile toward Muslims.

    Opinions held by Muslims in Europe--as well as opinions about 
Muslims among Europe's majority populations--vary significantly by 
country. No clear European point of view emerges with regard to the 
Muslim experience, either among Muslims or in the majority populations, 
on many issues. British Muslims are the most anxious about their future 
and most concerned about extremism.
    French Muslims are the most integrated and are less likely than 
others to primarily identify as Muslims and more often see themselves 
as French first. They are more likely to say they want to adopt 
European customs than are Muslims in other European countries. German 
Muslims are the most likely to consider Europeans hostile, although 
many fewer report a bad personal experience.
    Generally, European Muslims show signs of favoring a moderate 
version of Islam. With the exception of Spanish Muslims, they tend to 
see a struggle being waged between moderates and Islamic 
fundamentalists. Among those who see an ongoing conflict, substantial 
majorities in all four countries say they generally side with the 
moderates.

                                    MOST SEEING STRUGGLE SIDE WITH MODERATES
                                              [Amounts in percent]
----------------------------------------------------------------------------------------------------------------
                                                                                        And identify with--
                                                                         See a    ------------------------------
                                                                       struggle*     Moderates   Fundamentalists
----------------------------------------------------------------------------------------------------------------
Muslims in:
  Great Britain....................................................           58            38              15
  France...........................................................           56            50               6
  Germany..........................................................           49            36               7
  Spain............................................................           21            14               4
  Nigeria..........................................................           36            18              17
----------------------------------------------------------------------------------------------------------------
*Think there is a struggle in (survey country) between moderate Muslims and Islamic fundamentalists.

    Most French and British Muslims think women are better off in their 
countries than in most Muslim countries. About half of German and 
Spanish Muslims agree, and very few think women actually have it better 
in most Muslim countries. Moreover, most are not concerned about Muslim 
women in Europe taking on modern roles in society (although substantial 
minorities worry about this).
    Muslims in Europe are most sharply distinguished from the majority 
populations on opinions about external issues--America, the war on 
terrorism, Iran, and the Middle East. European Muslims give the United 
States lower favorability ratings than do general publics in Europe 
and, in particular, they give the American people lower ratings. The 
war on terror is extremely unpopular among minority Muslim populations.

               CONTRASTING OPINIONS IN EUROPE OF AMERICANS
                          [Amounts in percent]
------------------------------------------------------------------------
                                                              Favorable
                                                               opinion
------------------------------------------------------------------------
Among general population in:
  Great Britain...........................................           69
  Germany.................................................           66
  France..................................................           65
  Spain...................................................           37
 
Among Muslims in:
  Great Britain...........................................           39
  Germany.................................................           44
  France..................................................           48
  Spain...................................................           33
------------------------------------------------------------------------

    To conclude, it is no secret that the United States has an image 
problem in the Muslim world. The war in Iraq intensified and broadened 
discontent with America and its people among Muslims in the Mideast, 
Africa, and Asia. There is little sign from our surveys that this has 
meaningfully changed over the past 3 years. In some predominately 
Muslim countries there has been improvement, while in others a 
worsening of attitudes.
    But the bottom line remains the same. We are poorly regarded by 
most Muslims and significant numbers of them express at least tacit 
support for terrorist tactics and enemies of the United States, such as 
Osama bin Laden.
    As events of the past year in Europe have indicated, there is a 
broad divide between Westerners and Muslims around the world. Our 
latest surveys have detailed the nature of the complaints from both 
sides. Misunderstanding, value differences, and economics-based 
resentment have led to suspicion and created a mutually acknowledged 
divide. The good news is that Muslims in Europe, despite their concerns 
about their future are nonetheless far more moderate and positive 
toward the West than are Muslims living in the Mideast, Africa, and 
Asia. Their attitudes and the general populations in the host countries 
suggest that exposure may lead to improved understanding, mostly.

    The Chairman. Thank you very much, Mr. Kohut.
    We would like to hear now from Mr. Ahmed, if you would 
proceed.

 STATEMENT OF AMBASSADOR AKBAR S. AHMED, IBN KHALDUN CHAIR OF 
  ISLAMIC STUDIES, SCHOOL OF INTERNATIONAL SERVICE, AMERICAN 
                   UNIVERSITY, WASHINGTON, DC

    Ambassador Ahmed. Thank you, sir. A great honor to be 
speaking to this committee. I am especially thankful to 
Chairman Lugar for inviting me.
    I have been arguing since 9/11 that terrorism, the war on 
terror, cannot be understood without looking at the big 
picture, and this is what I'll do this morning. Terrorism is 
one small piece of the jigsaw puzzle, and that has been the 
limitation of the strategy thus far.
    Let us remind ourselves why relations between the United 
States and Muslim world are so important. Islam is a world 
civilization of 1.4 billion people and growing, 57 states, one 
of which is nuclear for the time being, and there are some 7 
million Muslims living in the United States. Besides, the 
United States has troops fighting and losing lives in two 
Muslim nations, Iraq and Afghanistan.
    Neither the war on terror nor a serious tackling of the 
global crises facing all of us on this planet, crises like 
global warming, poverty, the population explosion, the 
religious and ethnic conflicts, none of these can be resolved 
unless the vast and highly significant world of Islam is 
brought into a mutually respectful partnership with the rest of 
the world, especially with the United States, the sole 
superpower and leader of the world.
    As a Muslim scholar living in Washington, DC, I felt on 9/
11 that I had to do whatever little I could to create 
understanding between the two. I also knew that my extensive 
field experiences in charge of some of the most inaccessible 
areas of the Muslim world, such as South Waziristan Agency 
where Osama bin Laden is supposed to be hiding, would be an 
added advantage.
    This urge took me on travels in the Muslim world, to nine 
countries in the three major regions of the Muslim world--the 
Middle East, South Asia, and Far East Asia--from February to 
April 2006. I was accompanied by a small but enthusiastic group 
of American research assistants.
    We were able to discuss these issues with a whole range of 
people, from President Musharraf to prime ministers, princes, 
sheikhs, professors, students, taxi drivers, the whole gamut of 
society. We visited mosques, madrassas, university campuses, 
and classrooms. And the project was sponsored by three leading 
institutions in Washington: American University, the Brookings 
Institution, and the Pew Forum.
    Now, at the conclusion of the trip, my team and I felt that 
there was bad news and there was good news, so the bad news 
first. Throughout the travels we encountered very high levels 
of anti-Americanism and anti-Semitism. I have never encountered 
such intensity of emotion.
    The Muslim world, in the years of the cold war when the 
United States was so obviously the moral power, admired and 
respected the United States. Today we found that many Muslims 
do not see the United States as the moral power it once used to 
be. In fact, many of the people we surveyed throughout the nine 
countries said that they would prefer Saddam Hussein, the most 
ruthless and vile of dictators, to the Americans in Iraq.
    In Turkey, the most popular film ever made is called 
``Valley of the Wolves: Iraq.'' It's in theaters everywhere, 
and it is a crudely anti-American film which shows a group of 
``Rambo'' Turkish soldiers fighting against the evil United 
States soldiers.
    Even in the moderate country of Indonesia--and I have bad 
news for my colleague who referred to Nigeria in hope that 
Osama bin Laden would only be restricted as a role model 
there--on university campuses we found that bin Laden was the 
number one role model. He is now referred to as ``Sheikh'' 
Osama bin Laden. That is bad news. Perhaps you don't understand 
the nuance, but for a Muslim like me it is bad news. Anyone 
trying to preach and promote moderation will find this a major 
hurdle, because ``Sheikh'' means he has been elevated to a 
religious status.
    The Muslim world focuses on action rather than rhetoric, 
and right now they are seeing cold-blooded rapes in Iraq by 
United States soldiers, the encouragement of torture, and they 
feel they are not seeing the ideals of the United States, of 
democracy, human rights, and acceptance of diversity, that it 
once so proudly and clearly stood for. One affluent woman who 
used to live in the United States even told my team that she 
was scared to bring her grandchildren back to the United States 
because of the way they treat Muslims. That is the bad news.
    Furthermore, there is a widespread perception in the Muslim 
world that Islam is under attack from the United States. As we 
saw with the Danish cartoon controversy and the desecration of 
the Quran story, Muslims all over the world are very passionate 
about their religion and their Prophet. It is a culture with 
high reverence for and sensitivity to these religious symbols 
and traditions.
    Now let me explain what's going on in the Muslim world. 
There is a common belief here in the West that all this begins 
on 9/11. In fact, the story goes back almost two centuries. 
There has been a struggle within Islam, not so much for the 
soul of Islam but for the politics and the culture of Islam, 
between three broad interpretations of Islam: Between an 
orthodox, literalist interpretation, between one that advocates 
synthesis and receptivity to the West, and third the 
universalist or mystic response to the world. Three defined but 
distinct responses. So some of the labels that we are seeing 
after 9/11 cause nothing but confusing, and if you get your 
labeling wrong, you're going to run into problems later on 
because all your strategy is going to be wrong.
    Right now the warfare in Iraq and Afghanistan, the 
perceived attacks on Islam, and the insensitivity to culture 
are all reinforcing the strong orthodox, literalist 
interpretation of Islam, and this is now spreading throughout 
the Muslim world. So remember the formula: The more you push 
the Muslim world, the greater the support for the literalist, 
orthodox, the more you marginalize the moderates, the more you 
wipe out the mystics and the humanists. This is the simple 
formula we need to appreciate.
    There is cause and effect here. I refer to anti-Americanism 
and anti-Semitism but would like to introduce another word, 
related, perhaps not directly, but related to the concept of 
hatred, which is Islamophobia, the hatred of all things 
Islamic, although these concepts are different, but 
Islamophobia after 9/11 has gained momentum.
    The reasons are obvious. The 19 hijackers on 9/11 were all 
Muslim. Some of the most wanted people on the planet, Osama bin 
Laden and so on, are Muslim. So people generally and too easily 
equate Muslims to terrorists and extremists.
    The result of this Islamophobia has been attacks on Islam 
and on Muslims. Muslims then find there is little hope of 
getting justice in this climate, and are sometimes pushed 
toward acts of violence. I do not wish to condone these acts by 
any means, and have condemned them, but I want to put the 
discussion in some context.
    Now for the good news. This ignorance and hatred can be 
challenged and can change. Just as Muslims are sensitive to 
attacks on Islam, Muslims are also very receptive to the 
positive messages from within Islam. I encourage, Chairman 
Lugar, you and your colleagues, and indeed the American people, 
to learn about Islam and find the common bonds between the two 
civilizations.
    Indeed, American values of equality, justice, knowledge, 
and compassion, as seen in the respect for human rights, are 
shared explicitly with Islam. Remind the leaders in the Muslim 
world and the people there of these common values, without 
giving lectures to them. Remind them of the context.
    Remind them that beheadings, suicide bombings, are not part 
of Islam, and that two of the greatest attributes of God in 
Islam are the ``merciful'' and the ``compassionate.'' These two 
words are repeated by Muslims throughout the day all over the 
planet. Speaking about the common values shared by the Founding 
Fathers of the United States and the ideals of Islam will make 
a powerful and long-lasting impact on the hearts and minds of 
Muslims.
    Furthermore, Muslims, Christians, and Jews share deep bonds 
between them. Muslims are asked in the Quran to recognize the 
Jews and the Christians as ``people of the book,'' and they 
hold a special place in our theology. A common figure who 
inspires us and who we share as a common patriarch and ancestor 
is Abraham. And as for the love of Jesus in Islam, I urge you 
to read the ``Jesus poems'' of Rumi, who is such a popular poet 
in the United States. We share the notion of an omnipotent, 
universal God, the Ten Commandments, many of the central 
values. While political and historical events have divided the 
two, examples of peaceful coexistence also exist.
    So during these travels in the Muslim world, I would use 
these ideas, and I believe that the first, most important step 
was to talk about dialog, understanding, and friendship. So 
dialog, No. 1, understanding, No. 2, friendship, No. 3. You 
cannot have simple dialog and leave it there.
    One of the ways I would deal with the anti-Americanism and 
anti-Semitism was to talk of the dialogs I am having and the 
friendships that have been created here in Washington, DC. I 
mentioned my friends like Jean and Steve Case, Ambassador Doug 
and Ann Holladay, Bishop John and Karen Chane, Senior Rabbi 
Bruce Lustig and his wife Amy, and Dr. Lachland Reed, and many 
other friends like this. In my travels I mentioned these 
wonderful Americans who became my friends and who reached out 
to me after 9/11, seeing a lonely stranger in their midst.
    I mentioned how I am personally inspired by the example of 
my friend, Judea Pearl, who lost his only son, Danny Pearl, in 
a brutal, savage, and senseless killing in Karachi. Having 
gotten to know Judea as a friend over the years because of our 
dialogs conducted nationally and internationally in promoting 
Jewish-Muslim understanding, I have seen the heroic 
transformation of a personal tragedy into building a bridge to 
reach out and understand the very civilization that produced 
the killers who took his son's life. I would point out that 
these friendships have also helped to transform the 
relationship between Muslims, Jews, and Christians in the 
United States.
    And please keep the context in mind. I was quoting these 
names in a mosque in Damascus, where I was asked to deliver the 
post-sermon talk on a Friday, very significant for Muslims; in 
madrassas in Deoband and Delhi, in speeches in Islamabad, at 
the Royal Institute in Amman.
    I would finally ask my team of young Americans to speak, 
and I would introduce them as the best ambassadors we have 
between the United States and the Muslim world, as intrepid 
Americans who represented the best ideals of America. And for 
commentary on our travels, please see Beliefnet.com for 
articles by Dilshad Ali and the young Americans who accompanied 
me, Hailey Woldt and Jonathan Hayden. And I am grateful, 
Chairman Lugar, for giving permission to bring them here. They 
are here with me this morning.
    As a professor on campus I would also recommend some books, 
and this is what I would urge for you to do. This is an 
instinct, I suspect a genetic instinct in all professors. We 
can't restrain from doing this.
    My first book is by my friend, Dr. Jonathan Sacks, the 
Chief Rabbi of the United Kingdom, and it is called ``The 
Dignity of Difference.'' It is a powerful plea for Abrahamic 
understanding in the age of globalization.
    The second book I would recommend to my Muslim audiences 
and to my American audience this morning is also by a friend, 
Karen Armstrong, and her book is ``The Battle for God.'' In 
this book Karen illustrates how the three different faiths, 
Judaism, Christianity, and Islam, are all going through a 
period of intense internal debate in what she calls the 
``fundamentalist'' mode.
    And, third, to keep a balance--you've got a Jewish, a 
Christian, a Muslim author--I would recommend my own book, 
``Islam Under Siege,'' which argues that we are living in a 
world in which societies are feeling under siege, whether 
American societies, Israeli societies, or Muslim societies. And 
when societies feel under siege, they tend to be defensive and 
there is limited scope for wisdom or compassion.
    Essentially, this boils down to one recommendation, and 
perhaps you may dismiss it as too idealistic, but that is the 
only way to make lasting peace for the United States and the 
Muslim world. It is to create bonds of friendship across 
religion, race, and tradition. I have discovered in a very 
personal sense, not only as a scholar on campus but as someone 
involved in a very realistic, pragmatic way in dealing with 
real life situations, that once friendship develops, everything 
can change. Without these friendships, dialog itself remains a 
restricted exchange of ideas and leads to little else.
    This suggestion may be unlikely, particularly with the 
growing situation in the Middle East, but without genuine 
friendships we cannot expect any major changes in how we are 
dealing with the political situations on the ground. Take the 
example of the Palestinians and the Israelis. Too often the two 
view each other as enemies and are not prepared to concede 
anything except in terms of an advantage to themselves.
    The result is that even if there are concessions, they are 
seen to be a result of bitter negotiations which continue to 
leave acrimony on both sides. But if both parties are able to 
create friendships and then meet as friends, the situation will 
be very different, and the peace process itself may take a new 
momentum and a new meaning.
    In conclusion, this is a great leap of imagination I am 
asking you to make, but the exercise to understand the Muslim 
world is not a luxury for the United States. It is an absolute 
imperative. It is the first step, allowing you to confront the 
looming series of world crises which we face in the 21st 
century. And as you on the panel are those who this great 
Nation looks to for wisdom and guidance, I plead with you this 
morning to set aside the partisan and parochial issues and 
focus on the challenges of providing justice, compassion, and 
friendship in this dangerous, uncertain, and violent time.
    Thank you.
    [The prepared statement of Ambassador Ahmed follows:]

 Prepared Statement of Ambassador Akbar S. Ahmed, Ibn Khaldun Chair of 
Islamic Studies, School of International Service, American University, 
                             Washington, DC

    On that catastrophic day of September 11, 2001, I was acutely aware 
that the sole superpower of the world, the United States, which had the 
capacity to show the way to solving the global challenges that faced 
us, could be diverted in an endless war of revenge and anger. This 
event set the United States directly in confrontation with the world of 
Islam as it launched its ``war on terror.'' The complicated 
confrontation is bleeding the energies and resources of both 
civilizations. It is diverting the United States from its greater 
mission of showing the way to solve the problems that face the planet 
and concerns every human on earth. Whether the United States accepts 
the role as the moral leader for the 21st century willingly or not, the 
United States is the sole superpower and leader.
    Let us remind ourselves why a dialog between the United States and 
the Muslim world is important. Islam is a world civilization of 1.4 
billion people, 57 states--one of which is nuclear for the time-being--
and there are 7 million Muslims living in the United States. Besides, 
the United States has troops fighting and losing lives in two Muslim 
nations--Iraq and Afghanistan. Neither the war on terror nor a serious 
tackling of the global crises facing us can be resolved unless the vast 
and highly significant world of Islam is brought into a mutually 
respectful partnership with the rest of the world--especially the 
United States.
    As a Muslim scholar living in Washington, DC, I felt I had to do 
whatever little I could to create understanding between the two. I also 
knew that my extensive field experiences in charge of some of the most 
inaccessible areas of the Muslim world--such as South Waziristan Agency 
where Osama bin Laden is supposed to be hiding--would be an added 
advantage for both sides. This urge took me on travels in the Muslim 
world to nine countries in the three major regions of the Muslim 
world--the Middle East, South Asia, and Far East Asia, from February to 
April, 2006. I was accompanied by a small but enthusiastic group of 
American research assistants. We were able to discuss these issues with 
a whole range of people from President Musharraf to prime ministers, 
princes, sheikhs, professors, and students. We visited mosques, 
madrassahs, university campuses, and classrooms. The project was 
sponsored by three leading institutions in Washington DC--American 
University, the Brookings Institution, and the Pew Forum.
                                bad news
    Throughout the travels we encountered very high levels of anti-
Americanism and anti-Semitism. I have never encountered such intensity 
of emotion. The Muslim world, in the years of the cold war when the 
United States was so obviously the moral power, admired and respected 
the United States. Today, we found that many Muslims do not see the 
United States as the moral power it once used to be; in fact, many of 
the people we surveyed throughout the nine countries said that they 
would prefer Saddam Hussein, the most ruthless and vile of dictators, 
to the Americans in Iraq. In Turkey, the most popular film ever made 
called ``Valley of the Wolves: Iraq'' was in theaters when we were 
there. It is crudely anti-American and it shows a group of ``Rambo'' 
Turkish soldiers fighting against the ``evil'' United States soldiers. 
Even in the moderate country of Indonesia, the No. 1 role model for 
young Indonesians is Osama bin Laden--who is now widely called 
``Sheikh'' as a mark of religious respect. The Muslim world focuses on 
action rather than rhetoric and right now they are seeing cold-blooded 
rapes in Iraq by United States soldiers, the encouragement of torture, 
and they feel they are not seeing the ideals of the United States of 
democracy, human rights, and acceptance of diversity that it once so 
proudly and clearly stood for. One affluent woman who used to live in 
the United States even told my team that she was ``scared'' to bring 
her grandchildren to the United States now because of the way they 
treat Muslims. That is the bad news.
    Furthermore, there is a widespread perception in the Muslim world 
that Islam is under attack from the United States and the West. As we 
saw with the Danish cartoon controversy and the desecration of the 
Quran, Muslims all over the world are very passionate about their 
religion and their Prophet. It is a culture with high reverence for and 
sensitivity to these religious symbols and traditions.
    There is a struggle within Islam which has been in play for 
centuries but is now erupting, between the more literalist interpreters 
of Islam and the more receptive and mystic forms. Right now, the 
warfare in Iraq and Afghanistan, perceived attacks on Islam, and 
insensitivity to culture are all reinforcing the strong, literalist 
interpretations of Islam. More outward signs of orthodoxy are spreading 
throughout the Muslim world, even to Indonesia. The greater the 
perception that Islam is under attack, then, the greater the support 
for those Muslims who stand up as champions of Islam. There is clearly 
cause and effect here.
    I am referring to anti-Americanism and anti-Semitism but we need to 
keep in mind Islamophobia which means a hatred of Islam and prejudice 
against Muslims. Although they are different to each other, I suggest 
we need to understand their impact on each other. Islamophobia after 9/
11 has gained momentum. The reason is obvious: The 19 hijackers on 9/11 
were all Muslim. Some of the most wanted people in the world like Osama 
bin Laden are Muslim. People too readily equated all Muslims to 
terrorists and extremists. The result of this Islamophobia has been 
attacks on Islam and on Muslims. Muslims find that there is little hope 
of getting justice in this climate and are sometimes pushed toward acts 
of violence. I do not wish to condone these acts by any means and have 
condemned them, but I want to put the discussion in some context.
                               good news
    But there is good news. This ignorance and hatred can be challenged 
and can change. Just as Muslims are sensitive to ``attacks'' on Islam, 
Muslims are also very receptive to the positive messages from within 
Islam. I encourage all of the Senators and American people to learn 
about Islam and find the common bonds between the two civilizations.
    Indeed, American values of equality, justice, knowledge, and 
compassion (as seen in the respect for human rights) are shared 
explicitly with Islam. Remind the leaders and the people there of these 
common values without giving a lecture--remind them of this especially 
in their own context as well. Beheadings and suicide bombings are not 
part of Islam--remind them of that and that two of the greatest 
attributes of God in Islam are the ``merciful'' and the 
``compassionate.'' Speaking about the common values shared by the 
Founding Fathers of the United States and the ideals of Islam will make 
a powerful and long-lasting impact on the hearts and minds of Muslims.
    Furthermore, Muslims, Christians, and Jews share deep bonds between 
them. Muslims are asked in the Quran to recognize the Jews and the 
Christians as ``people of the book'' and they hold a special place in 
our theology. A common figure who inspires us and who we share as a 
common patriarch and ancestor is Abraham. As for the love of Jesus in 
Islam, I urge you to read the ``Jesus Poems'' of Rumi who is such a 
popular poet in the United States. The notions of an omnipotent, 
universal God, the Ten Commandments, many of the central values, are 
shared by the religions. Political and historical events have divided 
us, but examples of peaceful coexistence between the three religions 
can also be seen in history and contemporary society.
    I also used this idea to encourage understanding during my travels. 
The first and most important steps were to encourage dialog, 
understanding, and friendship. One of the ways I would deal with the 
anti-Americanism and anti-Semitism was to talk of the dialogs I am 
having and the friendships that have been created between Jews, 
Christians, and Muslims and give my own personal example. I mentioned 
my friends like Jean and Steve Case, Doug and Ann Holladay, Bishop John 
and Karen Chane, Rabbi Bruce Lustig and his wife Amy, and Dr. Lachland 
Reed. In my travels and talks, I mentioned these wonderful Americans 
who became my friends and who reached out to me after 9/11 seeing a 
lonely stranger in their midst.
    I mentioned how I am personally inspired by the example of my 
friend, Judea Pearl, who lost his only son, Danny Pearl, in a brutal, 
savage, and senseless killing in Karachi. Having gotten to know him as 
a friend over the years, because of our dialogs conducted nationally 
and internationally in promoting Jewish Muslim understanding, I have 
seen the heroic transformation of a personal tragedy into building a 
bridge to reach out and understand the very civilization that produced 
the killers who took his son's life. I would point out that these 
friendships have also helped to transform the relationship between 
Muslims, Jews, and Christians in the United States.
    Please keep the context in mind: I was quoting these names in a 
mosque in Damascus where I was asked to deliver the post-sermon talk on 
a Friday, in madrassahs in Deoband and Delhi, and in speeches in 
Islamabad, as well as the Royal Institute in Amman.
    I would finally ask my team of young Americans to speak and I would 
introduce them as the best ambassadors we have between the United 
States and the Muslim world as intrepid Americans who represented the 
best ideals of America (for commentary on our travels see Beliefnet.com 
for articles by Dilshad Ali, and the young Americans who accompanied 
me, Hailey Woldt and Jonathan Hayden).
    As a professor on campus, I would recommend essential reading to 
Muslims during our travels and now to you all to help us understand 
each other: The first book is by my friend, Dr. Jonathan Sacks, the 
Chief Rabbi of the United Kingdom, and it is called ``The Dignity of 
Difference.'' It is a powerful plea for Abrahmic understanding in the 
age of globalization. The second book I would like to recommend is also 
by a friend, Karen Armstrong, and her book is ``The Battle for God.'' 
In this book, Karen illustrates how the three different faiths Judaism, 
Christianity, and Islam, are all going through a period of intense 
internal debate in which what she calls the ``fundamentalists'' who are 
in opposition to the more ``moderate'' or ``liberal'' versions of 
faith. The third is my own book, ``Islam Under Siege,'' which argues 
that we are living in a world in which societies are all feeling under 
siege. When societies are under siege they tend to be defensive and 
there is little scope for wisdom and compassion.
    Essentially, I have one recommendation, one that can easily be 
dismissed as too idealistic, but that is the only way to making a 
lasting peace for the United States and the Muslim world: It is to 
create friendships across religion, race, and tradition. I have 
discovered that once friendship develops then everything can change. 
Without these friendships, dialog itself remains a restricted exchange 
of ideas and leads to little else. This suggestion may be unlikely, but 
without genuine friendships forming, we cannot expect any major changes 
in how we are dealing with the political situations on the ground. Take 
the example of the Palestinians and the Israelis. Too often the two 
view each other as enemies and are not prepared to concede anything 
except in terms of an advantage to themselves. The result is that even 
if there are concessions there are seen to be a result of bitter 
negotiations which continue to leave acrimony on both sides. But if 
both parties are able to create friendships and then meet as friends, 
the situation will be very different and the peace process itself may 
take on a new momentum and a new meaning.
    In conclusion, this will not be easy, but the exercise to 
understand the Muslim world is not a luxury for the United States--it 
is an imperative. It is the first step to confronting the looming 
series of world crises, and as you on the panel are those who this 
great Nation looks to for wisdom and guidance, I plead with you to set 
aside the partisan and parochial issues to focus on the challenges of 
providing justice, compassion, and friendship in this dangerous, 
uncertain, and violent time.

    The Chairman. Well, thank you very, very much, Mr. Ahmed.
    And now we call upon Dr. Khan for his testimony.

STATEMENT OF DR. MUQTEDAR KHAN, ASSISTANT PROFESSOR, POLITICAL 
 SCIENCE AND INTERNATIONAL RELATIONS, UNIVERSITY OF DELAWARE, 
                           NEWARK, DE

    Dr. Khan. In the name of God, most merciful, most 
benevolent. Distinguished chairman, Senator Lugar, and Senator 
Boxer, it is indeed an honor to share my expertise with this 
august body. As I was sitting here, I was thinking of an 
important Islamic ritual called shura, and I think we practice 
shura with great nobility and distinction here in the United 
States and in any Muslim society, unfortunately. Shura means 
the process of consultation and deliberation.
    Islam is structurally a dynamic religion that is 
systemologically pluralistic from the very beginning. What I 
mean by structurally dynamic isn't bad, that it has internal 
mechanisms that allow it to be continuously evolving, to be 
reinterpreted, and as a result of its internal dynamic 
structure Islam continues to remain relevant to Muslim life 
regardless of time and place. It is not a coincidence or an 
accident that Islam is more meaningful to Muslims, whether they 
live in the West or whether they live in the East, than other 
religions in other societies.
    But what is also interesting about Islam is its internal 
pluralism. From the very beginning there have been many 
interpretations of Islam. It is safe to say that there have 
been many Islams. There have been the Shia and Sunni, rational 
and traditional, mystical, philosophical, cultural, and 
juristic. So in the last 1,400 years we have seen several 
interpretations of Islam. They have coexisted across time and 
space.
    Lately, for the purposes of U.S. foreign policy, since 9/11 
we have been trying to imagine a specific interpretation of 
Islam as perhaps the designated enemy. Conservative Americans, 
particularly, and Israelis, try to believe that there is a 
discrete ideological and institutionalized actor called 
``radical Islam'' and sometimes ``radical fundamentalist 
Islam.'' That is essentially the problem.
    I submit to you that it is a mistake to assume that this is 
a discrete and coherent entity. For example, increasingly in 
the last few days as the Lebanon crisis has precipitated, 
people have equated Hamas, Hezbollah, and al-Qaeda as 
representative of the same phenomenon.
    Al-Qaeda and Hamas are Sunni organizations; Hezbollah is a 
Shia organization. Hamas is very close to Islamic Brotherhood 
in its theology and its ideology, whereas Zawahiri, the No. 2 
person of al-Qaeda, has written books chastising the Muslim 
Brotherhood. There is enormous enmity between the Muslim 
Brotherhood and the Jihadis, and therefore there is no sympathy 
that al-Qaeda has for Hamas. This is why until now we have not 
seen al-Qaeda target Israel. What is also interesting is that 
we have never seen Hamas target the United States.
    So it's very important for us to not club everything under 
the rubric of radical Islam, but that does not mean that there 
is no such tendency of radical Islam. There are many 
manifestations of Islam today, but for the purposes of American 
foreign policy it is important to recognize that there is, yes, 
a very vicious, very violent, very intolerant interpretation 
which is out there. But in order to understand that, I submit 
to you that it is better to look at these various 
manifestations of Islam in the Muslim world as options.
    Today there is a near universal consensus in the Muslim 
world on three issues: No. 1, that there must be political, 
social, normative, cultural, economic, and structural change. 
Nobody wants the Muslim world to remain as it is. Everybody 
wants change. Muslims are struggling to respond to these 
challenges of modernity and post-modernity, to the challenges 
of globalization, and particularly to the challenges, the 
structural challenges that have emerged as a result of the 
decolonization process.
    No. 2, most Muslims agree that there is no security in 
Muslim societies. They are victims of terrorism and war. As I 
heard President Bush repeatedly repeat that Israel has a right 
to defend itself, I kept amazingly wondering as to how nobody 
has ever said that even the Lebanese have a right to defend 
themselves. Muslim insecurity is taken for granted.
    There is also a strong consensus that Islam must play a 
role in the resurgence, the reconstitution, revival of the 
Muslim world, and therefore you see many different options. The 
point I am trying to make is this: That Muslims are trying 
through many ways to cope with modernization and globalization. 
Radical Islam is one option, and it is not an ideological 
issue.
    If moderate Muslims cannot deliver, then Muslims will 
abandon that option and seek another option. If our moderate 
allies in the Middle East will not provide Muslims security, 
dignity, respect, and freedom, then they will turn to the next 
option. So the United States, when it chooses partners, it is 
not important to choose partners on the basis of what they say 
or what they believe, but it is important for us to actually 
shape the outcomes on the ground in the Muslim world.
    There is, however, an alternative interpretation of Islam 
which is a direct challenger of radical Islam. We sometimes 
call it moderate Islam, or sometimes we call it liberal Islam. 
Liberal Islam has three or four important strategic merits for 
the United States and the West, and I will list them for you.
    No. 1, liberal Islam is providing an alternative 
understanding of world political and global reality in order to 
prevent the perception that war on terror is a war on Islam. 
No. 2, liberal Muslims have an interpretation of Islam which 
places Itjihad over jihad. Itjihad is an intellectual exercise 
for reviving society, the privilege, education, and 
development, over violence and conflict.
    No. 3, the liberal interpretation of Islam advances an 
idiom that explains the compatibility of liberal values such as 
tolerance, democracy, and pluralism. Finally, liberal Islam 
deconstructs the jihadi discourse to expose the extremist 
tendencies behind their interpretation of Islam, and 
underscores the more compassionate and rational dimensions of 
Islam.
    It is important for us to understand who is a moderate 
Muslim. One of the jokes in the Muslim world is that all 
moderate Muslims have been ``Karzai'd'' in the sense that they 
have become like Hamid Karzai, the president of Afghanistan, 
who has no respect in his own people. And this is very 
important for us. When we work with moderate Muslims, we ensure 
that we do not undermine their own legitimacy in the very 
constituency that they seek to reform and address.
    I would also like to talk to you about American Muslims. 
The
9/11 Commission, to a great extent, exonerated the American 
Muslims of any direct involvement in the attacks of September 
11. American Muslims are very unique because they are very rich 
in terms of per capita income, perhaps the richest Muslim 
community in the world. They are also the highest literacy 
levels.
    The American Muslim community, in my opinion, manifests 
more of liberal Islamic values and has institutionalized them 
more than any other community anywhere in the rest of the 
Muslim world. As a result of that, the American Muslim 
community becomes a natural ally of the United States.
    What role can American Muslims play in this war on terror? 
American Muslims have enormous potential to become an important 
ally in America's war against extremism. They can discuss 
threat assessments and threat identification. This is a role 
that we can play to a great deal.
    American Muslims would have provided the administration 
with a more accurate picture of the potential for threats from 
within the United States and outside. It is possible that the 
American Government is unnecessarily spending vast amounts of 
resources in surveillance of groups and individuals who may not 
constitute a threat, and may actually be overlooking those who 
could be problematic. American Muslim input on this subject can 
be immensely useful. Many U.S. policy makers continue to err in 
understanding and predicting the behavior of Muslim groups, and 
the chaos in Iraq is a case in point.
    One interesting distinction that I would like to make is 
the confusion over Hiz-ut-Tahrir and al-Qaeda. For the last 2 
years I've been watching experts in Washington, DC, attribute 
al-Qaeda's tactics to Hiz-ut-Tahrir, which is essentially a 
nonviolent organization, and attribute Hiz-ut-Tahrir's ideology 
to al-Qaeda, thereby committing gross errors. These are things 
that American Muslims, called on to study these movements, can 
help the administration in understanding.
    American Muslims can provide a Muslim face to American 
foreign policy, and the administration has already realized the 
enormous benefits of having somebody like Zalmay Khalilzad as 
Ambassador to Afghanistan and then as Ambassador to Iraq. But 
only one. I once confronted Under Secretary Karen Hughes and 
asked her to name the Muslims in her department, and she said 
there are 22, but she could not name one. That means they were 
not sufficiently high up for her to be consulting them for 
policy making.
    It is important that American Muslims be part of this 
administration. The Bush administration could have appointed a 
number of prominent American Muslim sportsmen who have respect 
worldwide, such as Hakeem Olajuwon, or even Imams, local 
indigenous Imams like Imam Hamza Yusuf, to become spokespersons 
for America and American Muslims.
    Another area in which American Muslims can provide 
assistance is in human intelligence and also in undercover 
operations. The recent operation in Canada which arrested 18 
was essentially because of the work of a moderate Canadian 
Muslim called Mubin Sheikh.
    And, finally, American Muslims can play an important role 
in counseling the radical Islamic discourse. One important 
arena where the United States needs its Muslim citizens is in 
countering the anti-U.S. propaganda. Both Islamists and 
governmental media have launched a propaganda war against the 
United States in response to its war on terror. This anti-U.S. 
media offensive is determined to focus on U.S. foreign policy 
excesses and failures.
    The enormous success of Islam and Muslims within American 
borders is an asset to America. It is a wonderful story that 
needs to be told. The very fact that American Muslims are 
thriving in America is proof positive that America is not 
against Islam. If America was waging war against Islam, then 
Muslims in America would have been its first victims. This is 
an important message which we need.
    Finally, I think American Muslims can restore balance to 
America's foreign policy. To put it bluntly, American foreign 
policy in the contemporary era has been a colossal failure, and 
I think even a potential danger to America's security 
interests. This administration would do well to listen to some 
moderate Muslim voices in shaping its foreign policy.
    And finally, I want to address what the United States can 
do. The United States must deliberate seriously on what kind of 
relations it wishes to have with a religion whose adherents 
constitute nearly 25 percent of the world population and 
include over 55 countries. Islam is also the fastest growing 
religion in all sectors of the West--in the United States, in 
Canada, in Europe, and Australia. Islam is outside and Islam is 
inside.
    The United States and the West must find a way to coexist 
with Islam without constantly demanding Muslims to abandon 
Islam. This is a very important issue for Muslims, since many 
see the United States as waging a war against Islam. This has 
to be done at every level, including government, media, and 
education. One statement by the President saying that Islam is 
a peaceful religion is not enough. It has to be repeated often, 
again and again.
    The United States must not undermine the important role of 
maintaining positive United States-Muslim relations for short-
term goals or for immediate expediencies.
    The United States must improve its credibility. It must 
practice what it preaches, fulfill its promises, and certainly 
abstain from betraying those who take risks at our behest. If 
you look at the situation in Lebanon today, the way we have 
abandoned Lebanon, I am not very sure if in the near future any 
moderate Muslim will be able to trust the United States and 
take risks for democracy at the behest of the United States. 
Muslims in Lebanon and Christians in Lebanon believe that the 
United States, after marching them down the path toward 
democracy, has betrayed them.
    American Muslims are America's natural allies and the best 
community when it comes to institutionalization of liberal 
values. The United States must embrace it and treat it as an 
asset rather than as a suspect.
    The United States has to make goodwill gestures toward the 
Muslim world, and that does not mean supporting dictators or 
selling more arms. Cooperation in areas of development, 
education, and economic empowerment will go a long way. 
Evenhandedness in its approach to the Muslim world is 
absolutely necessary. Abandoning it, especially in moments of 
crisis, is extremely detrimental.
    The United States must also rethink its relations with 
Islamists, and find ways and means to work with the more 
moderate Islamists who are pro-democracy, in order to empower 
them and to isolate the radicals. The United States must find a 
way to deal with the Arab-Israeli conflict that does not undo 
years of diplomacy and good work on the United States-Islamic 
relations every time there is a crisis over Israel.
    Muslims think that the United States and the West does not 
value Muslim life and that we do not care for their human 
rights. The changing of this perception will take a long time, 
but the United States can begin with Guantanamo, and by 
recognizing that Muslims too have a right to defend their 
lives, their property, their territory, and their sovereignty.
    U.S. foreign policy since 9/11 has sought security for 
America and its ally Israel by deliberately undermining the 
security of the Muslim world through bellicose rhetoric, 
irresponsible aggressions, and astonishing disregard for Muslim 
lives. We must realize that we cannot be more secure by making 
others feel insecure.
    There needs to be a paradigm shift in how we think of 
security. We live in a highly globalized and interdependent 
world. Islam is outside, Islam is inside. It is important that 
we think of security for all, including Muslim nations, Muslim 
societies. This is imperative.
    I leave you with this comment: The United States and Muslim 
relations will remain a critical component of global politics 
for a long time. They must be repaired and nurtured. There is 
no other alternative.
    Thank you.
    [The prepared statement of Dr. Khan follows:]

Prepared Statement of Dr. Muqtedar Khan, Assistant Professor, Political 
Science and International Relations, University of Delaware, Newark, DE

    In the name of God, most merciful, most benevolent.
    Distinguished Chairman, Senator Richard G. Lugar, and eminent 
members of the Senate Foreign Relations Committee, it is indeed an 
honor to share my expertise with this august body. We are engaged today 
in a highly noble Islamic and democratic ritual--Shura--consultation 
and I thank you for this opportunity.
    Islam is structurally a dynamic religion and has always been 
epistemologically pluralistic. In simple terms Islam has a built-in 
mechanism for continuous evolution, reform, and self-rejuvenation 
through the engine of Ijtihad. Ijtihad is a legal tool that enables 
Muslim jurists to think independently on issues where scriptures are 
either silent or ambiguous. It is also a divine invitation to all 
Muslims and all human beings to think, reflect, and deliberate on God's 
message and global realities in order to act in the most gracious, most 
compassionate, and most just fashion. Ijtihad will always keep Islam 
relevant and meaningful to Muslims and others who are fortunate to be 
blessed with its grace.
    Muslims have from the earliest period, after the death of the 
Prophet of Islam [pbuh], interpreted Islam in many ways. There have 
been many interpretations of what the Islamic Shariah--the essence of 
Islamic message--constitutes, some even contradictory, but Muslims have 
recognized difference and diversity as a consequence of divine purpose 
and developed a culture of tolerance for different manifestations and 
interpretations of Islam.
    So from the very beginning there have been different 
interpretations of Islam, Shia and Sunni, rational and traditional, 
mystical and philosophical, cultural and juristic. So it is more 
accurate to talk about Islams rather than Islam. For academic as well 
as strategic purposes, it is absolutely necessary to distinguish 
between different Islams and not paint with a broad brush for it will 
inevitably lead to bad analysis and bad policy.
    For the purposes of U.S. foreign policy however, it is important to 
distinguish between two broad competing historical tendencies within 
Islamic history. These two tendencies can be captured as a defensive 
mechanism that seeks to conserve, preserve, and defend ``Islam,'' and 
eventually leads to narrow, combative, and often intolerant 
interpretations of Islam and who a good Muslim is. In our times we 
associate this tendency very strongly with Salafi and Wahhabi groups. 
But we must be careful to recognize that religious intolerance does not 
necessarily lead to political confrontation, violence, terrorism, and 
anti-Americanism. While al-Qaeda is definitely Salafi-Wahhabi and is 
our enemy, the Saudi royal family and the Qataris and the Kuwaitis are 
also mostly Salafi-Wahhabis, but they are our friends and allies. Most 
jihadis are theologically Salafi-Wahhabis, but very few Salafi-Wahhabis 
are jihadis.
    The alternative is a more liberal and compassionate, even mystical 
interpretation of Islam, which is highly accommodating of difference 
within Islam and between religions. It is compatible with democracy, 
religious pluralism, and is often referred to as liberal Islam and or 
moderate Islam.
                         what is radical islam?
    Since September 11, there has been a strong tendency among 
conservative Americans and Israelis to construct the enemy as a 
discrete, ideological, and institutionalized actor called radical 
Islam, and sometimes radical fundamentalist fascist Islam. Radical 
Islam is imagined as a manifestation of Islam that is narrow, 
intolerant, authoritarian, violent, anti-west, anti-democracy, anti-
American and anti-Israel. I too have been guilty of this generalization 
in an article for current History in 2006. However, since then I have 
noticed anomalies. Secular, progressive Muslims also often share 
several of these characteristics with radical Islamists and there is no 
definitive relationship between conservative and traditional Islam, 
anti-Americanism, and violence.
    There is no doubt that there is at present a very angry and viscous 
and growing tendency within the Muslim world, but it may be a mistake 
to put it in a box called radical Islam. For example, Hezbollah and 
Hams are very different from each other, the former is Shiite, the 
later is Sunni, the former is motivated by geopolitics, the latter is 
struggling for independence. Neither shares theological or political 
goals with al-Qaeda. For example, Hamas has never targeted the United 
States. Also consider the Wahhabis and Salafis, while al-Qaeda sure is 
anti-America, not all Saudis, Kuwaitis, and Qataris, who share the same 
theology, are anti-America or even violent.
    My humble suggestion is to consider the various trends--political 
and theological--as options. Today there is nearly a universal 
consensus in the Muslim world on three issues: (1) That there must be 
political, social, normative, cultural, economic, and structural 
change. Muslims are struggling to respond to the challenges of 
modernity and postmodernity, not to mention the global geopolitical 
realities of the postcolonial world. (2) Most Muslims agree that there 
is no security in Muslim societies; they are victims of terrorism and 
war. (3) There is also a strong consensus that Islam must play a role 
in the resurgence, reconstitution, revival, development, and 
transformation of the Muslim world.
    I submit to you that all these movements in the Muslim world--
secular bathism, Islamism, resurgent Sufism, the calls for Islamic 
democracy, for liberal democracy and revolution--are all attempts to 
cope with the relative backwardness of the Muslim world, its tensions 
with modernity which is driven by western culture, and its inability to 
secure itself. Islamists like secular and moderate elites have a vision 
to offer.
    The battle of competing visions will not be won through rhetoric 
and discourse--it must come through delivery. The vision that delivers 
reform, change, empowerment, and security will win. So far Islamists 
have done a better job than most in the Arab world, unlike in South 
Asia and East Asia. Moderate and liberal Muslims can win the battle for 
the soul of Islam only if they are able to deliver. So far they have 
failed. So far everyone has failed except for the radical who at least 
hit back against those whom Muslims perceive as enemies.
    Radical Islam is an option that Muslims have turned to, due to the 
failure of all other ideas and movements to deliver a stable, 
prosperous, and peaceful state and society for average Muslims.
    Radical Muslims also offer an explanation of global politics and 
recent history that glorifies Islam, privileges Muslim tradition, and 
sometimes is consistent with a simplistic view of reality. For example, 
the current crisis in Lebanon goes a long way to convince Muslims that 
radical Islamists are right when they say that Israel, with the help of 
the United States, is out to destroy their nations.
    Political, military, economic, and intellectual independence from 
the West has always been the overriding goal of political Islam. 
However, the failure of Islamists to achieve these goals in nearly a 
century, in combination with real and perceived injustices committed by 
America and its allies against Muslims, has engendered an extremely 
vitriolic hatred of America in the hearts of some Islamists giving 
birth to radical Islam. I like to refer to these radicals as rogue 
Islamists, who are willing to do anything, absolutely anything, to 
destroy America and its power and will to prevent the realization of 
Islamist goals. Rogue Islamists and their hateful discourses are 
globalizing anti-Americanism, and in the process undermining the moral 
fabric of the Muslim world and corrupting the Islam's message of 
justice, mercy, submission, compassion, and enlightenment, not of war, 
hatred, and killing.
    Radical Islamists are a threat to both America and Islam. Their 
discourses are corrupting Islam and generating hatred against the West, 
modernity, America, and other Muslims who disagree with them. Their 
most powerful weapons are their ideas and their ability to convince 
Muslims to even give up their lives in order to hurt America, 
Americans, and American interests. While America seeks security from 
the attacks by rogue Muslims and needs to reduce anti-Americanism, 
moderate Muslims who do not subscribe to the Islamists discourse seek 
to rescue Islam and innocent Muslims from the corrupting influence of 
rogue Islamist.
    A response to rogue Islamists requires a complex strategy that 
above all must counter and delegitimize the Islamists worldview and 
discourses and expose their fallacies and the devastating consequences 
they could bring to Muslims and the world by triggering a long and 
bloody global conflict between America and the Muslim world.
                 liberal islam and its strategic merits
    It is my contention that the best antidote to radical Islam is 
liberal Islam. Liberal Islam cannot only challenge radical Islamist 
worldview using Islam as the foundational idiom and also provide an 
alternate interpretation of Muslim reality and a more positive vision 
of the future.
    Moderate Muslims have a very idealistic view of the Islamic duty of 
jihad. They argue, based on a tradition of Prophet Muhammad, that jihad 
is essentially a struggle to purify the self and to establish social 
justice. The highest form of jihad, Jihad-e-Akbar (the superior jihad) 
is struggle against the self to improve and excel in moral and 
spiritual realm. The lowest form of jihad is the military jihad that is 
essentially defensive and constrained by strict ethics of engagement. 
They correctly point out that terrorism, or Hirabah (war against 
society), is strictly forbidden by Islamic scholars. They, however, do 
maintain that Muslims can and must struggle for justice and freedom 
while strictly obeying Islamic and international norms of just warfare. 
For Muslim moderates, Islam is a religion of peace without being 
pacifist.
    Moderate Muslims are critical of American foreign policy in the 
Muslim world. They are also critical of the prejudiced view of Islam in 
the West and, in particular, among the policy elite who are also quite 
ignorant about Islam and the Muslim world. But Muslim moderates do not 
blame the United States or the West or modernity for all the problems 
in the Muslim world. They recognize that the decline of the Islamic 
civilization preceded colonialism. They are aware that the decay of 
free and creative thinking in the Muslim world was not caused by 
Western powers but came about as a result of internal dynamics. 
Moderate Muslims are critical of the polemics against the West, the 
rising anti-Semitism and the tendency to blame Israel for everything 
problematic in the Muslim world and the growing intolerance, 
sectarianism, and authoritarianism in Muslim societies. Above all, they 
lament the intellectual decline of the Muslim world.
    Moderate Muslims are also engaged in what is now referred to as the 
``battle for the soul of Islam.'' They argue that Islam is a message of 
compassion and peace sent by God in order to civilize humanity and give 
human existence a transcendent and divine purpose. They are aghast and 
reject the use of Islam to incite terror, to justify bigotry and to 
discriminate on the basis of faith, or gender, or ethnicity. They 
recognize that Islam has been appropriated by political and extremist 
groups who are using Islam as an ideology to pursue a counter hegemonic 
agenda, both with the Muslim world and against the rest, especially 
against the United States. Moderate Muslims acknowledge the global 
problem created by ``rogue Islamists.'' They insist that the false 
interpretations of Islam by the jihadis and their crusades are not only 
creating a global fitna (crisis) but are also corrupting the essence of 
Islam and worsening the socio-political, economic, and cultural crisis 
in the Muslim world.
    It is in the battle for the soul of Islam that America and liberal 
Islam share a common strategic goal and that is the systematic 
dismantling and delegitimization of the discourse coming from rogue 
Islamists that projects America as an anti-Islam crusader power and 
Islam as an ideology of hate and violence. It is in the arena 
interpretation and reinterpretation of global political realities and 
religious texts and their contemporaneous meanings that the war on 
terror will be won or lost. It is also in this contested realm that the 
hearts and minds of Muslims can be won or lost. So far, while moderate 
Muslims are beginning to have an impact in this battle in America, they 
are not even an important player in the Muslim world. American policy 
makers must recognize the strategic value of liberal Islam and promote 
and protect it.
    The interpretive battle the liberal Islam wages is in three arenas:

  <bullet> Providing an alternative understanding of world political 
        and global realities in order to prevent the perception that 
        the war on terror is a war on Islam.
  <bullet> Advance a liberal understanding of Islam within the Islamic 
        idiom that explains the compatibility of Islam and liberal 
        values such as tolerance, democracy, and pluralism.
  <bullet> Deconstruct the jihadi discourse to expose the extremist 
        tendencies behind their interpretation of Islam and underscore 
        the more compassionate and rational dimensions of Islam.
                       who is a moderate muslim?
    As one who identifies himself strongly with the idea of a liberal 
Islam and also advocates moderation in the manifestation and expression 
of Islamic politics, I believe it is important that we flush out this 
``religio-political identity.''
    Muslims, in general, do not like using the term--moderate, 
progressive, or liberal Muslim, understanding it to indicate an 
individual who has politically sold out to the ``other'' side. Others 
insist that there is no such thing as moderate Islam, or radical Islam; 
there is ``only one Islam''--the true Islam and all other expressions 
are falsehoods espoused by the munafiqeen (the hypocrites) or the 
murtads (the apostates). Of course the unstated politics behind this 
position is, ``my interpretation of Islam is obviously the true Islam 
and anybody who diverges from my position is risking their faith.''
    In some internal intellectual debates, the term moderate Muslim is 
used pejoratively to indicate a Muslim who is more secular and less 
Islamic than the norm, which varies across communities. In America, a 
moderate Muslim is one who peddles a softer form of Islam, is willing 
to coexist peacefully with peoples of other faiths and is comfortable 
with democracy and the separation of politics and religion.
    Both Western media and Muslims do a disservice by branding some 
Muslims as moderate on the basis of their politics. These people should 
generally be understood as opportunists and self-serving. Most of the 
moderate regimes in the Muslim world are neither democratic nor 
manifest the softer side of Islam. That leaves intellectual positions 
as the criteria for determining who is a moderate Muslim, and 
especially in comparison to whom, since moderate is a relative term.
    I see moderate Muslims as reflective, self-critical, pro-democracy 
and human rights, and closet secularists. Their secularism is American 
in nature. That is, they believe in the separation of church and state, 
but not French; they oppose the exile of religion from the public 
sphere. But who are they different from and how?
    I believe that moderate Muslims are different from militant Muslims 
even though both of them advocate the establishment of societies whose 
organizing principle is Islam. The difference between moderate and 
militant Muslims is in their methodological orientation and in the 
primordial normative preferences that shape their interpretation of 
Islam.
    For moderate Muslims, Ijtihad is the preferred method of choice for 
social and political change, and military jihad the last option. For 
militant Muslims, military jihad is the first option and Ijtihad is not 
an option at all.
    Ijtihad, narrowly understood, is a juristic tool that allows 
independent reasoning to articulate Islamic law on issues where textual 
sources are silent. The unstated assumption being when texts have 
spoken, reason must be silent. But increasingly moderate Muslim 
intellectuals see Ijtihad as the spirit of Islamic thought that is 
necessary for the vitality of Islamic ideas and Islamic civilization. 
Without Ijtihad, Islamic thought and Islamic civilization fall into 
decay.
    For moderate Muslims, Ijtihad is a way of life, which 
simultaneously allows Islam to reign supreme in the heart and the mind 
to experience unfettered freedom of thought. A moderate Muslim is 
therefore one who cherishes freedom of thought while recognizing the 
existential necessity of faith. She aspires for change, but through the 
power of mind and not through planting mines.
    Moderate Muslims aspire for a society--a city of virtue--that will 
treat all people with dignity and respect [Quran 17:70]. There will be 
no room for political or normative intimidation [Quran 2:256]. 
Individuals will aspire to live an ethical life because they recognize 
its desirability. Communities will compete in doing good and politics 
will seek to encourage good and forbid evil [Quran 5:48 and 3:110]. 
They believe that the internalization of the message of Islam can bring 
about the social transformation necessary for the establishment of the 
virtuous city. The only arena in which moderate Muslims permit excess 
is in idealism.
    The Quran advocates moderation [2:143] and extols the virtues of 
the straight path [1:1-7]. For moderate Muslims the middle ground, the 
common humanity of all, is the straightest path.
    It is my contention that the mainstream American Muslim community 
broadly qualifies as an example of liberal and moderate Islam. They 
believe in democracy, human rights, respect women's roles in the public 
sphere, and most importantly believe, practice, and advocate religious 
pluralism.
       what role can american muslims play in the war on terror?
    American Muslims have an enormous potential to become an important 
ally in America's war against extremism. If consulted and brought into 
counterterrorism planning they can help America become more effective, 
more focused, and more cost-effective. These are the following areas in 
which they can and could have played a major role:
Threat assessments and threat identification
    American Muslims would have provided the administration with a more 
accurate picture of the potential for threats from within the United 
States. Their analysis would have helped in making the Department of 
Homeland Security a vastly smaller and more effective institution.
    It is possible that the American Government is unnecessarily 
spending vast amounts of resources in surveillance of groups and 
individuals who may not constitute threat and may actually be 
overlooking those who could be problematic. American Muslim input on 
this subject can be immensely useful.
    Many United States policy makers continue to err in understanding 
and predicting the behavior of Muslim groups and the chaos in Iraq is a 
case in point. If American Muslims were involved in the management of 
Iraq after the war, it would have been easier for Washington to 
establish better communications and perhaps gain more cooperation from 
various groups.
Provide a Muslim face to America
    American Muslims could have given a Muslim face to America's 
response to September 11, and the feeling in the Muslim world that this 
is a Christian-Zionist crusade against Islam would have been averted.
    The Bush administration should have appointed a number of prominent 
American Muslim sportsmen, such as Hakeem Olajuwon, and some Imams such 
as Imam Hamza Yusuf (American convert to Islam who is well respected in 
the Muslim world) as special envoys of goodwill to the Muslim world. 
The State Department is now attempting this in a less prominent way. 
Prominent Muslim presence in America's diplomatic and counterterrorism 
endeavors would have gone a long way in not only preempting the rise of 
anti-Americanism, but also in building trust between America and the 
Muslim world.
Human intelligence
    The most important assets that American Muslims can bring to the 
war on terror is human intelligence, cultural insights, linguistic 
skills, and experience and awareness of the diversity within Islamic 
groups and movements. It is possible that FBI, CIA, and the NSA can 
access this resource through recruitment. But voluntary support in this 
area from the community can be priceless.
    Many American Muslim scholars have argued that Islam and democracy 
are compatible. The Bush administration could have recruited several of 
them to make this case in Iraq and help design the Iraqi democracy and 
write its constitution. Without a significant input from respectable 
Muslim scholars, the Iraqi constitution may not stand up to accusations 
that it is un-Islamic and written to make Iraq subservient to American 
interests.
    Moderate Muslims opposed to extremism can also play a role in 
undercover operations like that played by Mubin Sheikh in Canada and in 
the Showtime serial, Sleeper Cell.
Counter-Islamic discourse
    One important arena where the United States needs its Muslim 
citizens is in countering the anti-U.S. propaganda. Both Islamists and 
governmental media have launched a propaganda war against the United 
States in response to its war on terror. This anti-U.S. media offensive 
is determined to focus on U.S. foreign policy excesses and failures. It 
also seeks to explain every aspect of American policy as if it is 
serving only Israeli interests. With American Muslims as spokespersons 
surfing the media and the airwaves in the Muslim world, the United 
States could have a better chance of getting a more balanced view of 
its policies.
    American Muslims can also counter the abuse of Islam by rogue 
Islamists and undermine their legitimacy. American Muslim scholars have 
consistently maintained that Hirabah (terrorism) is not jihad and is 
strictly prohibited by Islamic principles. They have also demonstrated 
how suicide bombings violate Islamic ethics of self-defense and are not 
legitimate instruments of jihad. If the voice of American Muslim 
scholars was given more attention, say through a White House-sponsored 
conference on jihad, many of the moderate and liberal elements in the 
Muslim world would recognize the fallacies in the Islamic edicts of 
rogue Islamists and the scholars who support and justify their cause.
Restore balance to America's foreign policy
    To put it bluntly, American foreign policy lately has been a 
colossal failure and even potentially dangerous to America's interests. 
This administration would do well to listen to some moderate Muslim 
voices in shaping its foreign policy objectives and in determining 
tactics. Except in the case of Israel, American Muslims have the same 
vision for the Muslim world as claimed by this administration. American 
Muslims, too, want wholesale regime changes and establishment of 
democracy in the entire Muslim world. They, too, want to see the 
general human rights environment improving and wish that prosperity and 
freedom would take root in the Muslim world. The difference is that 
American Muslims would recommend strategies that are more humane and 
involve less bombing and killing. This administration needs American 
Muslims and it is time it acted on this need and included them in its 
policy deliberations.
                     what can the united states do?
    The United States must deliberate seriously on what kind of 
relations it wishes to have with a religion whose adherents constitute 
nearly 25 percent of the world's population and include over 55 
countries. Islam is also the fastest growing religion in all sectors of 
the West, United States and Canada, Europe and Australia. Islam is 
outside and inside, the United States and the West must find a way to 
coexist with Islam without constantly demanding Muslims to abandon 
Islam. This is a very important issue for Muslims since many see the 
United States as waging a war against Islam itself. This has to be done 
at every level including government, media, and education.
    The United States must not undermine the important goal of 
maintaining positive United States-Muslim relations for short-term 
goals or for immediate expediencies.
    The United States must improve its credibility. It must practice 
what it preaches, fulfill its promises, and certainly abstain from 
betraying those who take risks at its behest and when motivated by it 
to pursue democratization or social liberalization. After watching the 
way we have handled the crisis in Lebanon and repeated requests for 
help from the Lebanese Prime Minister, I am not sure anyone will be 
eager to trust the United States in the near future.
    American Muslims are America's natural allies and the best 
community when it comes to institutionalization of liberal Islamic 
values. The United States must embrace it and treat it as an asset 
rather than as a suspect.
    The United States has to make goodwill gestures toward the Muslim 
world, and that does not mean support dictators or sell more arms. 
Cooperation in areas of development, education, and economic 
empowerment will go a long way.
    Evenhandedness in its approach to the Muslim world is absolutely 
necessary. Abandoning it, especially in moments of crisis, is extremely 
detrimental.
    The United States must rethink its relations with the Islamists and 
find ways and means to work with moderate Islamists in order to empower 
them and isolate the radicals.
    The United States must find a way to deal with the Arab-Israeli 
conflict that does not undo years of diplomacy and good work on the 
United States-Islamic relations every time there is a crisis with 
Israel.
    Muslims think that the United States and the West does not value 
Muslim life and do not care for their human rights. The changing of 
this perception will take a long time but the United States can begin 
with Guantanamo and by recognizing that Muslims, too, have a right to 
defend their lives, property, and territory.
    United States foreign policy since 9/11 has sought security for 
America and its ally, Israel, by deliberately undermining the security 
of the Muslim world through bellicose rhetoric, irresponsible 
aggressions, and astonishing disregard for Muslim lives. The United 
States must realize that they cannot feel more secure by making others 
feel insecure. It is important that the United States work for the 
security of all, including Muslim nations. This is imperative.
    United States-Muslim relations will remain a critical component of 
global politics for a long time. They must be repaired and nurtured. 
There is no other alternative.

    The Chairman. Thank you very much, Dr. Khan. Let me say we 
really appreciate the comprehensive testimony of all four of 
you, and I know that Senator Boxer and I both have a number of 
questions. I would like to call upon Senator Boxer first of 
all, in case she has a time requirement, if you would proceed.
    Senator Boxer. Thank you. I do, and I so appreciate that, 
Mr. Chairman. I found all of you very interesting, and I want 
to make a few comments here and ask a few questions. How much 
time would I have?
    The Chairman. Take the time that you require.
    Senator Boxer. Thank you. Thank you very much. I'll try to 
keep it succinct.
    First of all I want to say, Dr. Khan, I really liked your 
idea of having Muslim Americans playing a large role in our 
foreign policy, especially these days. It just makes sense, and 
I think we all need to pay attention to that.
    The beauty of our country is that we are so diverse, and 
you're right, the American dream is there for everyone. That's 
why we are here, to make sure that stays that way, and everyone 
who has had the opportunity I think could be a great voice for 
our country. So that I really like.
    The place I really disagree with you is your comment about 
how America has abandoned Lebanon, and I know this is a very 
hot topic right now, but I feel I must say that as I look at 
the situation, it isn't America who has abandoned Lebanon, but 
in fact it is Syria and Hezbollah and the fact that the 
Lebanese don't have the ability, the wherewithal, to police 
their own southern border. This is a crisis of major 
proportions, and if everyone paid attention to U.N. Resolution 
1559 and Lebanon could in fact be free of this militia in the 
south and free of foreign influence, the world would be a far 
safer place.
    Now, I know this is a hot topic. I'm not going to get in an 
argument with you, but I don't believe in any way that America 
has abandoned Lebanon. Now, the one way I think America could 
have done better all these years is to pay more attention to 
that whole situation, to be pushing so that in fact U.N. 
Resolution 1559 was listened to, and to play a bigger role in 
the Palestinian-Israeli conflict. For sure I agree on that, but 
I don't think in this case you can point to America as the 
culprit for what is happening there.
    And I want to say to His Excellency Ahmed that I so 
appreciate your insights on religion. For myself, in my youth, 
I will never forget this because when you're a child and your 
parents are everything to you, my parents bought me a book. It 
was called ``One God.'' ``One God.'' And I never forgot it 
because it was so interesting to me, because the point of the 
book--it's written for children--was that in essence, 
regardless of what religion we follow, there is one God at the 
end of the day.
    And that very simple point really unites all people, and I 
think that unfortunately what has happened with religions, with 
organized religion over the years is, instead of all of us 
working on that concept, somehow the differences have come to 
the fore. And that's a way bigger question than we have time to 
go into, but I just really think that simple message has to get 
to children and get to all of us because it will in fact bring 
us together.
    I need to get a few things off my mind here. When I 
listened to Mr. Kohut and his exceptional work out in the 
field, he is a bearer of bad news. He doesn't relish telling us 
this news, but the fact is that the opinion of this country in 
the world, and frankly if you even look beyond the Middle East, 
but in the Middle East, is dismal, and I think it is making us 
less safe. Anti-Americanism, to quote you, Mr. Kohut, is a 
global phenomenon.
    This news is a blow to the American people. When I remember 
back--again, you know, we all bring our own experience to the 
table here--when we were so beloved in the world, and rightly 
so, I mean, we had a clear sense of what we were about and what 
our role was in the world. And I think we have lost our way and 
made a lot of mistakes, and rage toward America makes us less 
safe and anger makes us less safe.
    I personally believe that, you know, you take President 
Bush's urge for democracy and elections, but you couple it with 
this anger, and what you get is Hamas winning in the 
Palestinian Territories, and Ahmadinejad being elected in Iran. 
Even in Iraq the Bush administration favorites lost, and one 
didn't even get any votes. In other regions of the world the 
same thing is happening, sadly in our own hemisphere.
    So while democracy as a goal is laudable, we have got a lot 
of homework to do to make sure that we are seen as a success 
and a beautiful model of what the world should all be like, and 
it's just not happening out there. I want to talk about why I 
think that's so, and I don't want to be simplistic about it 
because it's not simple. Just listening to you, Dr. Hoffman, I 
mean, it's complicated.
    But I think after 9/11 we had the whole world with us, Mr. 
Chairman. You remember. The whole world. In France the headline 
was, ``We are all Americans.'' And we blew it by going into 
Iraq. There wasn't one al-Qaeda cell there on 9/11. I have 
shown this booklet on many occasions, as has Senator Feingold. 
This is a State Department document that came out right after 
9/11, showed where al-Qaeda was. Not in Iraq, no way, not one 
cell. Not one cell in Iraq.
    But instead of going after Osama bin Laden who attacked us, 
keeping it clear, keeping the world together, going after 
terrorism, we turn around on a dime and we go into a place 
where our own State Department said there wasn't one al-Qaeda 
cell. And the President still said Iraq is part of the war on 
terror, and he said it at the time, and the fact is, the 
terrorists moved in there after we went in there, because we 
became real fuel for the insurgency.
    We are sitting ducks. We're losing. I read today that 
yesterday we lost another five Americans, Mr. Chairman. About 
23 to 25 percent of the people we've lost over there, of our 
military are either from California or based in California. 
It's extremely painful. I think the war in Iraq is a gift to 
Osama bin Laden, and it's a gift that keeps on giving every day 
that we are there. It's fueling the recruitment of terror 
groups, the more we get bogged down. And as I said, now al-
Qaeda in Iraq is there, and they're responsible for 10 percent 
of the violence there, the most heinous violence.
    So I have a question here about a comment by Peter Bergen, 
and I'm going to address it to Dr. Hoffman. Peter Bergen, as 
you all know, I think most of you know, is an expert on 
terrorism. He said, ``What we've done in Iraq is what bin Laden 
could not have hoped for in his wildest dreams.'' This is all 
his quote. ``We invaded an oil-rich Muslim nation in the heart 
of the Middle East, the very type of imperial adventure bin 
Laden has long predicted was the United States' long-term goal 
in the region.''
    Dr. Hoffman, do you agree with Peter Bergen that the war in 
Iraq played right into the hands of Osama bin Laden and those 
who are twisting the Muslim religion to benefit the war on 
terror?
    Dr. Hoffman. Yes, I do. Certainly in bin Laden's seminal 
thoughts, which I referred to in my testimony, that was issued 
in August 1996, in fact in the last pages he predicted that the 
United States and the United Kingdom would use Saudi Arabia as 
a base to wage a predatory and aggressive campaign against 
Islam, with the intention of taking over the Muslims' most 
precious natural resource, the oil in the region. So in some 
respects he was cuing this up long before it occurred.
    The reason though I agree with Peter is that there was an 
enormous change in al-Qaeda's propaganda in February and early 
March 2003, where the more ideological statements that appeared 
on alneda.com, its principal Internet organ then, were replaced 
by actual clarion calls to battle, calling upon jihadis to 
converge on Iraq to resist this latest instance of Western 
aggression; not to prop up Saddam Hussein but rather to use 
this as an opportunity, I think an opportunity that they had 
lost because of their defeat in Afghanistan, to confront United 
States forces and to use suicide terrorist tactics and other 
means. So certainly I think it did play into his hands, that 
this was one of the battlefields that he sought to create.
    By the same token, though, I think today we are in an 
enormously difficult situation where immediate withdrawal is 
not a solution, because this would indeed also play into his 
hands, in the sense that this would be trumpeted, much like the 
withdrawal of the Soviet Union from Afghanistan in 1989, as yet 
another victory for the jihadi terrorists, and indeed perhaps 
even add more fuel to the fire in their aggressive intentions.
    Senator Boxer. Well, you have said it well. The worst 
leadership--you didn't say this--to me the worst leadership is 
when you have no good choices. You know, as a mom I always 
learned from the child psychologists that you give your kids 
three good choices before--you know, you say, ``You can either 
go to bed at 8:00, 8:15, or 8:30.'' You know, they are all good 
choices.
    Well, we don't have a good choice. Either we leave and cut 
our losses, or we stay, continue our losses, because we're not 
sure what's going to happen. It could be used as propaganda and 
the rest. That's a debate that we're having here every single 
day and every single minute, really, within the parties and 
across party lines. But to me the fact is, you never can forget 
why you're in this situation if you're going to be able to have 
better policies in the future.
    I have one last question, if I might. You have been so kind 
and generous, Mr. Chairman. I really appreciate it.
    You know, again on the dilemma that you pose, get out or 
stay, I was thinking the other day, if each of us picture 
ourselves in a room with a swarm of bees, and the door is shut 
and we're in the room, and we have insecticide to spray that 
doesn't work too well but it helps a little bit, we have a 
newspaper to swat, and then we have the door we could open and 
get out, I think that reminds me of where we are. However, I do 
think closing the door is the best option. You could figure out 
how to deal with the situation once you're safely out of the 
room.
    But again, I'm not asking about that because you 
fortunately don't have to vote on those kind of issues. I do. 
And you don't have to write the letters that I write every 
day--every day--the condolences. So that's where we are.
    So I want to go back to public opinion, Mr. Kohut. You 
found, in a global opinion poll released last month, that 
favorable views of the United States continue to drop 
throughout the world--throughout the world. According to your 
report, ``America's global image has again slipped, and support 
for the war on terror has declined even among close United 
States allies like Japan. The war in Iraq is a continuing drag 
on opinions of the United States, not only in predominantly 
Muslim countries but in Europe and in Asia as well.''
    I want to ask you first, do you think--you mentioned the 
war in Iraq. If you were to--I know it's hard for you to do 
this--put a percentage as to how much of a role the war in Iraq 
has played in that opinion, and while you're thinking about 
this, also, do the people in the world know that Americans 
don't really agree with this administration on Iraq?
    Because in March, the Pew Research Center conducted a poll 
of Americans in which respondents were asked to give a one-word 
impression of the situation in Iraq. This is in our own 
country. According to the poll, the words ``mess,'' ``bad,'' 
``chaos,'' ``terrible,'' and ``disaster'' were offered most 
frequently, along with such variants as ``hopeless,'' 
``pitiful,'' ``Vietnam,'' and ``out of control.''
    So do you think the people throughout the world are 
distinguishing between the American Government's policy in Iraq 
and the American people and their views? Hard questions, I 
know.
    Mr. Kohut. Well, I think that probably in the Muslim world 
that distinction is not being made. There is more convergence 
between anti-Americanism toward the government and not liking 
the American people in the Muslim world than elsewhere. Perhaps 
in Europe there is a greater sense, or among our allies more 
generally there is a greater sense that there is discontent 
with the war, although attitudes toward the war in the United 
States, as you know, remain highly partisan. There is not 
discontent with the war among Republicans. It's mostly among 
Democrats and Independents.
    So I think the answer is a mixed one to your second 
question. As to your first question, I would give you the two 
headlines. In 2002, before the war in Iraq, our headline was 
that there is growing dislike of the United States around the 
world and discontent with the United States, but there's still 
a reserve of goodwill toward the United States all around the 
world, outside of the Muslim world. A headline in May of 2003, 
when things were really going pretty well in Iraq, was that the 
U.S. image has plummeted all around the world, and it pretty 
much hasn't recovered. There have been some ups and downs.
    A lot of what we were writing about this year was the fact 
that the progress we had seen in some places last year had 
slipped back, in Indonesia, in India, in Russia, for example. 
But, you know, the war in Iraq is the 800-pound gorilla with 
respect to the image of the United States around the world, but 
perceptions of America's policies with respect to Israel and 
Palestine, the Israeli-Palestine dispute is the 800-pound 
gorilla in that realm of the world.
    And I wanted to react to the comment you made with respect 
to Dr. Khan's comment. I think whether the United States has 
abandoned Lebanon or not, that is probably the perception in 
the Muslim world today, because in the Muslim world so many 
people think, even in places like Kuwait where the United 
States still has a good image, that we unfairly support Israel. 
So I would think that in that dispute, I would think that 
what's bad for Israel, what makes Israel look bad in that world 
among the public, makes us, the United States, look bad.
    Senator Boxer. Well, I was heartened to hear some Lebanese 
saying that it's time Hezbollah got out, and when you look back 
at the assassination of Hariri, maybe that was a turning point, 
too. So I think it's a little more complex than just as simply 
as you lay it out there.
    But, Mr. Chairman, I so appreciate this hearing. I know 
it's not well-attended because of so many competing things 
going on, but I just have learned a lot, and I so appreciate 
this panel and your indulgence. Thank you.
    The Chairman. Well, thank you very much, Senator Boxer. I 
share your enthusiasm for this panel and the timeliness of the 
hearing. I appreciate so much your presence.
    Senator Boxer. It would have been a little more lonely for 
you, I know.
    The Chairman. Exactly, and we're grateful. And I would just 
say that Senator Boxer is a regular attendee at our hearings, 
but nevertheless has, as I do, an intense interest in the 
issues that we have before us this morning.
    Let me begin my questioning by noting that the Aspen 
Institute, among other good things that it does, has a 
congressional program, and a study program following 9/11 
proceeded to try to bring some instruction to Members of 
Congress, Senate and House, about Islam. This is sort of basic 
training for many of us, and this is achieved through breakfast 
meetings here in the Capitol and likewise through conferences 
in other countries. So recently we had, at least several of us, 
17 as I recall, were in Istanbul for a conference that brought 
together people from the area as well as scholars from the 
United States and our own resources.
    Now, during these conferences, you mentioned, as I recall, 
Dr. Ahmed, Karen Armstrong as one of the authors whom you were 
recommending, and she has participated in our conferences, as 
have other scholars that you would recognize, and that has been 
helpful. Whenever any of their books arise, we are alert 
because we have heard the persons, have had some dialog, in the 
presence of people who had a variety of Muslim experiences, and 
that has been important. That's a point that you have made, Dr. 
Khan, as well as you, Dr. Ahmed.
    Let me just say that having said that, one of the themes of 
the early conferences came down to this thought, whether it's a 
200-year separation and problem or whatever the time frame, 
that the Industrial Revolution proceeded in Europe and did not 
proceed, at least in the same form, in the Muslim world; that 
essentially Europeans, because of the modernity or what have 
you that came from the Industrial Revolution, gained wealth, 
gained substantial capital, and that did not occur in many 
states in the Middle East.
    And, furthermore, there were different developments in 
attitudes toward women. In the most stark sense, Europeans 
would say we utilized the total work force, and in some Arab 
and Muslim states people would say we used half of the work 
force; women were not a part of this. Now, that overgeneralizes 
the situation, but nevertheless there were very stark 
differences in attitude.
    So, as a result, at the end of the day, whether this is for 
good or for bad, a number of countries that appear to be in the 
West, in Europe, leaving aside the United States, appear to be 
doing reasonably well, and a lot of young people coming up in 
the Middle East do not appear to be doing very well, and they 
don't have very much hope of doing very well under the current 
circumstances.
    Now, whether that is the basis for problems or not, the 
fact is that into this picture about 60 years ago--we have 
learned in other hearings in this committee in which we have 
discussed energy to a fair-the-well--the United States and 
Saudi Arabia got together during the Franklin Roosevelt 
administration. We had mutual interests, and among them, 
perhaps paramount, was oil and the possibilities that that had 
for us and for Europe, and ultimately for Japan and for others 
who were in industrial situations.
    There was not necessarily a pact between the two countries, 
the United States and Saudi Arabia, or any other particular 
country, but nevertheless it was fairly well understood that 
those lines of oil were vital to us, as well as the income to 
the rulers of Saudi Arabia, and as a result we began to take 
steps to make certain that that continued. One could make a 
case that when we became heavily involved with the Shahs of 
Iran we had similar thoughts, but in any event we were 
involved.
    Now, this maybe, for many in Congress became more acute as 
Iraq invaded Kuwait, and there were prospects that that 
invasion might proceed right on into Saudi Arabia, into the oil 
fields there, quite apart from what was occurring in Kuwait. 
And President Bush, the first President Bush, talked about 
pushing back aggression. We sought United Nations support to do 
that.
    We also sent as many as 500,000 American troops into the 
area. We were the only country that could do that, and it was 
one of the first manifestations of that essential point in 
world politics, that the United States alone really had that 
transporting quality, that mobility to tackle difficult 
problems, and that was one we decided to tackle. The Saudis, 
after some deliberation, decided that they would like for us to 
come to their defense and we, in fact, began to put a good 
number of troops in Saudi Arabia.
    Now, after the war, the troops stayed in Saudi Arabia. Some 
who have testified before our committee, perhaps in less 
comprehensive form, have indicated that this is not necessarily 
when we caught the attention of Osama bin Laden. His own 
history has been a source of considerable interest to the 
committee from time to time, his earlier beginnings, his work 
in African states, his work moving through many states, and his 
relationship with family in Saudi Arabia, for that matter.
    The question that I have for all four of you to begin with 
is a major part of the American predicament, leaving aside any 
other country, the fact that there is considerable strategic 
resentment--not simply overall public relations problems but 
strategic resentment--of American military forces in the area 
who appear to be there, if not on a permanent basis, at least 
readily available to get there, given the mobility of modern 
means, and who have in fact been there on a permanent basis in 
one form or another, despite destruction of barracks in Saudi 
Arabia, movement of troops to more secure locations in the 
course of time, all sorts of allegations as to who really was 
responsible, whether Iranians were involved, quite apart from 
persons in the al-Qaeda movement, or indigenous Saudi forces, 
whoever. This has been a part of our predicament, if not a 
major part. The United States has a reliance upon oil in that 
area, as does the rest of the world, and the rest of the world 
depends upon us to maintain the flow.
    As a matter of fact, when for example, 2 months or so ago 
there was a rumor that terrorist forces, whoever they were, 
were coming down the road toward a refinery in Saudi Arabia 
that reportedly produces 13 percent of refined oil in any one 
day, in which the world has maybe a 2 percent discrepancy 
between supply and demand, so the knocking out of that sent 
chaos into the Western world, the good news was, the terrorists 
were stopped, whoever they were. The Saudis indicated they had 
security there, but there was a shakeup. Prices of oil spiked. 
In other words, there was a recognition by the rest of the 
world that life as we know it in industrial Europe, Japan, and 
the United States wouldn't come to an end but it would be 
severely dislocated.
    So, as a result, armed forces are required to try to 
maintain these supply lines. Is there any hope for the 
reconciliation we're talking about today, or movement, so long 
as this energy need remains and the United States finds it 
incumbent to be present to protect our interests and those of 
others?
    I would just add that the first George Bush financed the 
Kuwait/Desert Storm situation through a vast international 
United Way campaign. I happened to be with the President of the 
United States at that time when he got a call which was vital 
from the Prime Minister of Japan, informing the President of 
the first very generous contribution of Japan to this effort, 
which was followed by several more generous contributions. I 
really saw diplomacy at work in that way.
    Is there, I ask first of you, Dr. Hoffman, a way for 
reconciliation, goodwill, a better opinion of everybody, quite 
apart from al-Qaeda being on the march or not on the march, 
while we are there and while there are vital interests that we 
feel we need to protect, as well as, for example, Saudi 
friends?
    Dr. Hoffman. Well, you know, your question is an excellent 
one and it's obviously a very complex one. I think you're 
right, though, that at least historically--we've been examining 
early al-Qaeda documents at RAND now for the better part of a 
year--it seems quite clear that bin Laden was no friend of the 
United States from his formative period in Afghanistan, but it 
was really the Palestinian-Israeli conflict that was something 
of a fulminate.
    But I think it remained in the back of his mind until 
Saddam Hussein invaded Kuwait and we had the massive build-up, 
which on the one hand he thought the United States would never 
leave the region. On the other hand he also thought, as you 
were zeroing in on, that this was part of a United States 
policy to extract from Muslims undervalued oil resources and 
energy resources, and this became one of his points of 
contention against the United States.
    I think the flash point for his turn to international or 
global terrorism was the influence of Ayman al-Zawahiri, his 
No. 2, who is an Egyptian, head of an Egyptian Islamic jihad 
terrorist group, where he at least began to formulate this 
concept of a far and a near enemy. And I think it was the 
failure of al-Zawahiri's group to overthrow the Mubarak regime 
in Egypt in the early 1990s that influenced bin Laden: Let's 
not deal with the near enemy, the local powers that the United 
States props up and supports, but let's move to the puppet 
master in the back, and that focused on the United States.
    In responding to your question, I'm not an energy 
specialist at all, but I think you're hitting an important nail 
on the head. And that is, we tend to look at all of these 
movements as monolithic, and we indeed buy, I think, the 
terrorist propaganda that they have a united, undivided front 
directed against us, when in fact I think very much the 
opposite is the truth, that they are subject to the same 
divisions, especially the same very acute personality 
rivalries. I believe Abu Musab al-Zarqawi's rivalry with bin 
Laden and al-Zawahiri is an example of this.
    And I think that we're not as sensitive as we should be, 
largely as my colleagues on the panel have argued, that because 
there is, I think, a large amount of our attitude toward the 
Middle East and toward the Muslim world that's based on 
conjecture rather than on a deep knowledge, and therefore 
without this deep knowledge, this understanding, not just in 
detail, of our adversary, which I think in this conflict is 
amongst the poorest we have ever faced.
    In Vietnam, for example, we encountered many frustrations, 
but one thing, it cannot be said of the United States effort 
that we did not understand our adversary in the National 
Liberation Front, the Vietcong. There were detailed studies and 
interviews with thousands of Vietcong detainees, so we built up 
a very clear picture, not just of how they operated and 
functioned and recruited but of the divisions within their 
ranks, and then we could direct very, I think, finely 
calibrated and effective information operations and propaganda 
to drive even a wider wedge.
    So I think on the one hand we haven't taken advantage of 
this same opportunity with many of the detainees we have in the 
war on terrorism and in Iraq to really understand our 
adversary. And I think, as we've heard from my three colleagues 
on the panel, we fundamentally don't understand the 
constituency in the Middle East, in the Muslim world, who we 
need to appeal to, who we need to enlist in the struggle, and 
rather in recent years we have inadvertently, perhaps, 
alienated.
    The Chairman. Let me just pick up with Dr. Khan for a 
moment this point from Dr. Hoffman's testimony. You made a very 
valid point, for instance with the Karen Hughes operation, that 
she was not able to identify the Muslims on the staff. Perhaps 
they were not conspicuous or high up enough.
    But it's a more basic problem than that that Karen Hughes 
has. We, it seems to me, are hamstrung, as we have heard in 
these hearings, by our own problems of trying to identify 
people of any of the Muslim situations who are seen as reliable 
by our Government, to the point for example that if Osama bin 
Laden were intercepted by the United States on a tape, on cell 
phone, it is always a question of who would be able to 
translate what he had to say. Would we know really what the 
conversation was? Is the data mining sufficient finally, and 
are there enough people with language ability, interpreters, to 
try to fathom through this?
    Now, we get conflicting testimony. People say, ``Well, you 
have to understand, we do background checks for people involved 
in intelligence or public relations and so forth, and there are 
difficult aspects to these background checks. We find unusual 
people coming into the lives of these people, and therefore 
what kind of reliance can you put on this sort of thing?'' It's 
a circular thing that goes round and round, through perhaps an 
ignorance of all the nuances here.
    As somebody who has studied this perhaps more carefully 
than most, how do we begin to get some basis for enlisting 
people of Muslim faith, moderate or not, who are eager to play 
a role in the United States Government, to be able to assist us 
in whatever we are doing now?
    Dr. Khan. Thank you very much. There is a very interesting 
dilemma that intelligence agencies and the U.S. Government has, 
and that dilemma is that the most interesting people that will 
be most useful for the government are people who have 
interesting contacts back home.
    The Chairman. Yes.
    Dr. Khan. And they are the people that the government 
suspects the most.
    The Chairman. Interesting histories.
    Dr. Khan. Yes, so we need people who know radical 
Islamists, who know people who can call up Lebanon and find out 
whether the Lebanese army is supporting Hezbollah or not. The 
kind of person who can find that thing out for us is also the 
kind of person we would like to send to Guantanamo.
    Now, that is the whole dilemma for the U.S. Government as 
to how to resolve this, and I heard that there are going to be 
changes at the Central Intelligence Agency on recruitment. It's 
coming down the pipeline. Unfortunately, we have bureaucratic 
and legal issues which take a long time to come.
    But there are also several other issues. I think that U.S.-
Muslim relationships have been corrupted by oil to a great 
extent. It is like dating an exceptionally beautiful person, 
and what happens is that the physical beauty distracts from all 
the other qualities of the person. So when we started dating 
the Middle East, we only focused on oil. We have never seen 
them as human beings.
    The United States has had more closer diplomatic relations 
with Saudi Arabia than with Israel, but there are no people-to-
people relations between the people of Saudi Arabia and the 
American people. And this whole idea of looking at Islam and 
even American Muslims through the lens of the Middle East has 
created invisible barriers.
    American Muslims, too, made a big mistake when they became 
politically active in this country and started trying to 
participate in this policy. They made the goal of reducing the 
influence of the Israeli lobby as one of their most important 
goals, and making the Palestinian cause as their No. 1 goal. 
It's like a flyweight boxer taking on a heavyweight boxer in 
their first bout. And as a result of that, the American Muslim 
community has not been able to approach the government, and has 
remained a challenge and a critique and not a participant.
    And these are the two reasons why, when Karen Hughes comes 
into this position, she does not know whom to hire and whom not 
to. I took her with me to the Islamic Society of North America, 
and there she made this very interesting comment. She said, 
``You have more credibility than I have in the Muslim world.'' 
And then she proceeded to travel to the Muslim world without 
any Muslims with her on the whole tour. And so I went on radio 
and I said, ``Madam, you left your credibility behind.'' And 
this is----
    The Chairman. She left you behind, Dr. Khan.
    Dr. Khan. No. There are two other comments that I wanted to 
add about your previous question to Dr. Hoffman. I think beyond 
the Iraq issue there are two or three very clear issues which 
alienate Muslims from America.
    Muslims and Third World countries have always admired 
America because America in their mind is a colony that made it 
big, a British colony that made it big. So can India, so can 
Egypt. So everybody looked up to the United States as a role 
model for development. But what has happened beyond Iraq, and 
keeping the Iraq issue aside, is there are three things which 
have created a lot of resentment against America.
    No. 1, Muslims tried in two different ways to develop in 
the last 50 years. One model was socialism, and it led to 
dictators like Nassir and Saddam Hussein, and so socialism 
failed them. The other alternative was Islamization, which 
never really got going because Muslims have seen the United 
States as a barrier to Islamization and therefore a barrier to 
development and modernization.
    No. 2 is the Arab-Israeli conflict. The Arab-Israeli 
conflict has been a source of pain, misery, and humiliation to 
Muslims all over the place, and that is really important to 
Muslims. While I was coming for this hearing, a Somalian cab 
driver was lecturing me on how I would be betraying Islam if I 
did not raise the Arab-Israeli issue in this Senate hearing, 
and so I am not betraying Islam. [Laughter.]
    No. 3, there is this perception in the Muslim world that 
the United States now is determined to keep the Muslim world 
weak, and therefore, while it looks the other way when Israel 
has nuclear weapons, it's determined to go after Iran which 
does not have nuclear weapons and prevent it.
    So these three perceptions--and it has not to do much with 
oil, actually--these three perceptions have created a sense of 
resentment, and I think that there are two things that America 
can do to reverse this. One is to have a just solution to the 
Arab-Israeli conflict just now, as quickly as possible. The 
other is to develop a respect. We need to develop human-to-
human contact. People have to know.
    When I travel through the Muslim world and listen to a lot 
of anti-Americanism, I start by saying this. I say, ``Did you 
know that last year Americans gave over $250 billion in 
charity, in sadaqah, which is nearly twice the annual income of 
Saudi Arabia?'' That stuns them. It completely deconstructs 
their perception of Americans as immoral, because giving 
charity is a great, great value in Islam. It changes the way 
they think. They need to know the softer side of America, and 
so does America need to know the softer side of Muslims. Oil 
and Israel prevent us from doing that.
    The Chairman. Well, maybe they do, and I suppose my first 
question was a suggestion that they do, but for the moment it's 
not really clear to me how we get away from the oil. This is 
sort of a passionate cause of my own, and I will not bedraggle 
the hearing with this, because I think without a very sharp 
diminishment of the use of oil in this country, we are fated to 
have the sort of problems we're talking about today 
indefinitely, and this is simply a fact of life.
    As a matter of fact, we have been through the process of 
talking about Ukraine and Russia and European business with 
natural gas, but the facts of life increasingly are the 
strategic use of oil. As Iran becomes more wealthy, leaving 
aside the Saudis or anybody else, it creates very grave 
dilemmas for us.
    Now, on the other hand, we have a strategic alliance with 
Israel, an affinity there that is important to most Americans 
and is not going to go away, not going to diminish. So we make 
the case again, and perhaps we will have the wisdom for a peace 
process, for cease-fires, for some diminishment of this, and we 
all pray that that's the case almost every day, but how, 
factually, that comes about is hard to come by.
    We started our day in the committee hosting the Egyptian
Foreign Minister and other ministers that are here for talks on 
strategy with the United States, and they were tremendously 
interesting with their insights on the cease-fire or how you 
begin to separate the parties in Lebanon, quite apart from 
Syria, quite apart from anyplace else. We always are eager to 
get advice, but I came away from that meeting not sure if these 
are problems with regard to public opinion. Beyond that there 
are simply the emotions; we separate ourselves very rapidly.
    Now maybe, as you have suggested, Dr. Khan, if our 
generosity to countries was more apparent it would have a 
greater effect. Mr. Kohut has mentioned Indonesia looking a 
little better, at least those parts of it, I suppose, that were 
helped after the tsunami, and that would be true in Pakistan, 
where relief came to people up in the mountains. Clearly, if we 
were more adept at our public diplomacy--as you have suggested, 
our generosity to other places in the Middle East has been 
profound, and so the word needs to get out. We need to be 
better at this.
    But I keep circling around sort of basic problems that are 
in the way of all of this resolving itself very rapidly.
    Dr. Khan. Let me give you a small suggestion, like for 
example, who is going to rebuild Lebanon? Do we wait until Iran 
provides some funding to reconstruct Lebanon? A decision by the 
United States now to say that once there is cease-fire and 
Hezbollah is either dismantled or moved away, further away, so 
they cannot threaten northern Israel, the United States will be 
willing to reconstruct the damage that Israel made in Lebanon--
--
    The Chairman. That's probably a good idea, but let me just 
ask as a matter of practical politics, to any of you, who in 
the world is governing Lebanon at this point? Even if we were 
to make these pledges, where is there a government that has 
enough profound influence throughout all of the precincts of 
Lebanon that any American statesperson, contractor, soldier, or 
what have you would be safe in the place?
    In other words, as I listened to the Egyptians talking 
today about rockets in the houses of people in Lebanon, up and 
down the street and so forth, being utilized by the powers that 
be that are firing at the Israelis and so forth, I'm not sure, 
who are the Lebanese? Where is the governance, and where do the 
Syrians come into this? Are they out of it? Are they into it? 
Should they be back into it?
    In other words, I think your point is well taken, but 
trying to separate all of the parties here so that we have at 
least some possibility of doing good is not really clear in my 
mind. Can anybody else offer some clarity as to how?
    Ambassador Ahmed. Yes, Mr. Chairman. I wanted to make a 
comment related to the discussion.
    You not only have Lebanon. Turkey has issued a statement 
that it is now looking at the Kurdish incursions into Turkey 
and seriously considering going in. India and Pakistan are once 
again heating up in terms of the rhetoric between the two 
countries, the two giants, both nuclear, three wars between 
them.
    What Iraq has established is a precedent, and that is so 
dangerous. The United States in this situation, as the sole 
superpower, needs to be acting, needs to be thinking three 
steps before something takes place, rather than reacting. It 
just cannot afford, it is too big. It is the oil tanker in a 
small pond.
    Now, the situation is that you have got Iraq, you have 
Iran, Syria being involved, Iran being involved. And in my 
travels I discovered that a lot of Sunnis--and this is an 
important nuance in the Muslim world, the Shia-Sunni nuance--a 
lot of Sunnis were referring to Ahmadinejad as the role model. 
Now, why? Osama bin Laden, who is a Sunni, is understandable. 
Simply because he is standing up to the United States.
    So the United States needs to be aware of the trend and 
move ahead of the trend, the graph itself. It cannot wait for 
events. It cannot say, ``Let us see what is happening in 
Lebanon.'' Because Turkey may be involved soon. Suppose India 
now says, ``All right, cross-border terrorism, we are crossing 
into Pakistan.'' Pakistan is 165 million people, it's nuclear. 
It will tilt everything that you're doing in that part of the 
world.
    So putting it in the context of the Middle East, and I know 
that this is a major concern, the oil and the oil links, and 
Central Asia, both major oil producing zones where the United 
States does not have the option of cutting and running, it just 
doesn't, but it does have the option of changing strategy, of 
playing the game by the rules as they are played in that part 
of the world, what the British, if you recall, called the 
``great game.''
    That part of the world has seen all the great conquerors 
coming and going, from Alexander to Genghis Khan. We have now 
the United States Army there, the most powerful army in the 
world today. What are the rules there? You need to make allies 
who respect you. You need to have a word which is respected.
    Right now there is a feeling, even in the close allies that 
you have, apart from the governments who may be allies, and I 
don't know how loyalty would be if aid stopped, but the people 
certainly feel that the United States is a fair weather friend, 
that when policy changes they'll just dump you and walk away, 
as the Afghans felt.
    In the 1980s, the Afghans were the most loyal allies of the 
United States. They fought the war with the United States 
against the Soviets. One-third of the Afghan population has 
lost a limb. They were the freedom fighters. In the 1990s, they 
became the Taliban. Bin Laden is of that generation and from 
that school, if you like. So the need to keep allies and 
friends and recognize them, to play a long-term game, these are 
the rules of the great game.
    And, third, to learn to play the game through the culture 
of honor and respect and tradition, because if we don't honor 
people, they have the stories of rape. That is crossing the 
border. And then this talk of jihadists, Osama bin Laden, al-
Qaeda, is meaningless. Every Muslim, whether he is orthodox or 
secular or mystic, is horrified, as indeed is every good 
Christian or every good Jew, every good secularist even, when 
rape is committed of the kind that you are hearing emerging 
from these horror stories.
    So if we are conscious of the great game, if our soldiers 
abroad, diplomats abroad are realizing that this is a long-term 
game strategy, we cannot opt out of it, because if we pull out, 
there is a huge vacuum in the Middle East, Central Asia. Think 
about it, Mr. Chairman. You have two other local superpowers 
waiting to emerge, Russia and China, both who have played the 
game for the last two centuries, imperial Russia, imperial 
China.
    And in the 21st century, two decades, three decades down 
the road, if America is not aware of the game, playing by its 
strange rules there--they are playing cricket, you are playing 
baseball, different kinds of rules--and if you cut and run, you 
may have a situation where in this vacuum you will get powers 
that may not be friendly to interests that the United States 
represents. And to me, ultimately what the United States does 
represent is human rights, democracy, the ideals of the 
Founding Fathers. That is the vision and the dream we 
constantly need to come back to and share with the Muslim 
world. That message, that bridge is not coming across, and that 
needs to be reinforced.
    The Chairman. I appreciate that statement because it 
certainly is important in terms of the debate we're having in 
this country, which you witnessed. We have a fairly large 
percentage of the public and a fair number of Members of 
Congress who, as a matter of fact, wouldn't call it cutting and 
running, but they want to get out.
    They would say despite all the obligations you have 
suggested, even the possibilities of a vacuum being created 
with Russia and China and all the rest, that as far as they're 
concerned we have had enough. People don't like us. They are 
attempting to subvert whatever we have to do, distorting what 
we believe we are, and they ought to just proceed, do the best 
they can.
    Now, I don't think that side will prevail but I'm not 
overconfident. In part, a number of our congressional 
elections, in which all of us will be involved in 16 weeks, are 
on these sorts of issues in which things are polarized just 
around those points, so that what we're talking about today 
does have long-run circumstances, but it also has some short-
term volatility in our own politics, leaving aside whatever is 
happening in the Middle East.
    Let me just ask you, Mr. Kohut, you've been pondering over 
all of this argument for a while, but we would like your 
counsel as to what you have heard.
    Mr. Kohut. Well, one thing that's clear is that of all the 
things that you mentioned in your set of questions, that the 
war in Iraq has made all of this worse. It has poisoned the 
well. I don't think that, while Osama bin Laden and his ilk had 
issues with Americans on the ground in Saudi Arabia through the 
1990s, that certainly--I shouldn't say certainly--probably 
wasn't the case in the Muslim world at large. It wasn't the 
case in Turkey, where we had a very positive image. It wasn't 
the case in Jordan and in other places.
    I think, though, that the presence of American troops in 
Iraq raises the issue of Americans in the Middle East, and that 
makes the American presence there more broadly more of an 
issue. Similarly, while as Dr. Khan said we were seen as dating 
for purposes of oil, oil is even more--there is even more 
skepticism about our motives and intentions because of the war 
in Iraq.
    All of these things have just become worse, and 
increasingly what we see in, I'm not saying the Arab world, the 
Muslim world, is an us-versus-them phenomenon. And one of the 
ways that came through is when we did our poll earlier this 
year about Iran obtaining nuclear weapons, there was tremendous 
opposition to that idea in the West and most parts of the 
world, but not really tremendous opposition among Iran's Sunni 
neighbors. In Egypt, in Jordan, there was mixed opinion, in 
some respects, for it.
    It's a very, very negative situation that will require some 
dramatic success for the United States in the eyes of the 
Muslim publics, and what that is I don't know.
    The Chairman. Well, we very much appreciate your testimony 
and your response to our questions, and we will try to make as 
complete a committee record of this hearing as we can, because 
you have said things that are important for all of our 
colleagues, and perhaps the public as a whole that takes a look 
at these hearings through the benefit of C-SPAN or however. 
These are important moments for us, to try to concentrate on 
what you have to say and to reread it, and to try to think 
about some of the other sources that you have cited.
    So this will not be our concluding hearing on this subject. 
This is an education process, as I have indicated, for each one 
of us who needs to know more, needs to be visiting with people 
such as yourselves, as you are able to give us this time. We 
certainly thank you for your generosity this morning.
    So saying, the hearing is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
